   July 29, 2005




Acquisition
DoD Purchases Made Through the
General Services Administration
(D-2005-096)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
CODB                  Contract Order Database
ESC/FD                Electronics Systems Center Force Protection Command and
                         Control System Program Office
FMR                   Financial Management Regulation
FTS                   Federal Technology Service
GSA                   General Services Administration
IT                    Information Technology
MIPR                  Military Interdepartmental Purchase Request
OMIS                  Operational Management Information System
O&M                   Operation and Maintenance
PM/DCATS              Program Manager, Defense Communications and Army
                         Transmission Systems
RDT&E                 Research, Development, Test, and Evaluation
USD(C)                Under Secretary of Defense (Comptroller)/Chief Financial Officer
                           INSPECTOR GENERAL
                          DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704
                                                                            July 29,2005
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY.   A..
                        - .- , . N-
                               - - --     - ..- -
                                   D T.OGTSTTCS
                                     - - -.
                                        -   -

               UNDER SECRETARY OF DEFENSE
                 (COMPTR0LLER)lCHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               D ~ C T O RDEFENSE
                           ,        LOGISITCS AGENCY
               DIRECTOR, DEFENSE MANPOWER DATA CENTER
               NAVAL INSPECTOR GENERAL
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY
SUBJECT: Report on DoD Purchases Made Through the General Services
         Administration (Report No. D-2005-096)

       We are providing this report for review and comment. We received comments
From the Office of the Under Secretary of Defense for Acquisition, Technology, and
Logistics and the Office of the Under Secretary of Defense (Comptroller)/Chief Financial
Officer. The Director, Defense Manpower Data Center also provided unsolicited
comments. All comments were considered in preparing the final audit report.
       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
Comments from the Office of the Under Secretary of Defense (Comptroller)/Chief
Financial Officer were responsive to the recommendations. The Office of the Under
Secretary of Defense for Acquisition, Technology, and Logistics comments were partially
responsive. We request additional comments on Recommendation 1.a. by August 30,
2005.
        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Audcm@dodi~.osd.mil.Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed 1
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Terry L. McKinney at (703) 604-9288 (DSN 664-9288) or Mr. Timothy E. Moore
at (703) 604-9282 (DSN 664-9282). See Appendix F for the report distribution. The
audit team members are listed inside the back cover.




                                Deputy Inspector General

cc: Inspector General, General Services Administration
           Office of the Inspector General of the Department of Defense
Report No. D-2005-096                                                       July 29, 2005
 (Project No. D2004-D000CF-0238)

                        DoD Purchases Made Through the
                         General Services Administration

                                   Executive Summary

Who Should Read This Report and Why? DoD contracting officials, program
managers, and financial managers should read this report because it discusses widely
misunderstood DoD guidance on planning, reviewing, and funding purchases made
through the General Services Administration Federal Technology Service Information
Technology Fund. This report discusses 38 potential Antideficiency Act violations.

Background. This report is the first in a series of reports on DoD purchases made
through non-DoD activities. This report discusses DoD purchases through General
Services Administration Client Support Centers. The audit was made in accordance with
the requirements of Public Law 108-375, the Ronald W. Reagan National Defense
Authorization Act for Fiscal Year 2005, section 802, “Internal Controls for Department
of Defense Procurements Through GSA Client Support Centers.”

The General Services Administration Federal Technology Service assists Federal
agencies in identifying, acquiring, and managing technical solutions. The General
Services Administration Federal Technology Service provides the Federal Government a
comprehensive range of information technology products and assisted services on a fully
cost-reimbursable basis. The General Services Administration procures information
technology with the Information Technology fund and procures professional services
using its General Supply Fund.

In FY 2004, DoD sent approximately 24,000 Military Interdepartmental Purchase
Requests to the General Services Administration, representing more than 85 percent of
the business contracted by the Client Support Centers. The General Services
Administration Federal Technology Service received approximately $8.5 billion for the
Network Service Program, the client support centers, and other miscellaneous programs
to purchase information technology equipment and services. In the fourth quarter of
FY 2004, DoD sent more than $1 billion.

We reviewed 75 purchases funded by 144 Military Interdepartmental Purchase Requests
valued at about $406 million, which occurred primarily in the fourth quarter of FY 2004.

Results. General Services Administration contracting officials and DoD management
officials did not comply with the U.S. Constitution, appropriations law, and the Federal
Acquisition Regulation when making purchases through the General Services
Administration. Of the 75 purchases reviewed:

       •    68 lacked acquisition planning to determine that contracting through the
            General Services Administration was the best alternative available;
       •   74 did not have adequate interagency agreements outlining the terms and
           conditions of the purchases;

       •   38 were funded improperly, the requesting DoD organization either did not
           have a bona fide need for the requirement in the year of the appropriation or
           did not use the correct appropriation to fund the requirement; and

       •   44 were not supported by an adequate audit trail.

The mismanagement of funds and lack of acquisition planning for the funds transferred to
the General Services Administration over the last 5 years has caused from $1 billion to
$2 billion of DoD funds to either expire or otherwise be unavailable to support DoD
operations.

The Under Secretary of Defense for Acquisition, Technology, and Logistics needs to
establish requirements to ensure that all purchases using non-DoD contracts are evaluated
by a qualified contracting officer prior to the purchase leaving the DoD. A contracting
official should sign and be involved in the purchase and should document that the use of
interagency contracting is the best option for DoD. Also, the Under Secretary for
Acquisition, Technology, and Logistics needs to establish requirements so that assisted
acquisitions are conducted under specific interagency agreements that define roles and
responsibilities regarding contract administration and surveillance duties. The Under
Secretary of Defense (Comptroller)/Chief Financial Officer needs to revise DoD
Financial Management Regulation, volume 11A, chapter 3 and work with the General
Services Administration to develop a system to track appropriation funds by type and
year that were transferred by DoD to the General Services Administration using Military
Interdepartmental Purchase Requests. The Under Secretary of Defense
(Comptroller)/Chief Financial Officer needs to publish guidance that prescribes the
general policies that apply to both Economy Act orders as well as non-Economy Act
orders. In addition, the Under Secretary of Defense (Comptroller)/Chief Financial
Officer needs to publish clear guidance to all DoD organizations on the funding of non-
DoD contracts and the necessity to track funds from the origination of the initial Military
Interdepartmental Purchase Requests to the invoice payment that reimburses the
Information Technology Fund. The Under Secretary of Defense (Comptroller)/Chief
Financial Officer also needs to require the Defense Finance and Accounting Service to
report all payments made to non-DoD agencies by appropriation type and year. Lastly,
the Under Secretary of Defense (Comptroller)/Chief Financial Officer needs to direct the
DoD Components to initiate preliminary reviews to determine whether the use of
Government funds for the 38 purchases listed in Appendix C was improper and resulted
in Antideficiency Act Violations or other funding violations in accordance with DoD
7000.14-R, “Financial Management Regulations.”

Management Comments and Audit Response. The Director of Defense Procurement
and Acquisition Policy, answering for the Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics nonconcurred with our recommendation that a
contracting officer determine whether it is in the best interest of the DoD to use
interagency support. The Director also felt that documenting the decision via a
determination and finding was unnecessary. The Director of Defense Procurement and
Acquisition Policy stated that its recently developed policy allows each of the Services
and Defense agencies to determine who evaluates the various purchase options. The
Director stated that this policy has not been in effect long enough to determine whether a
change is warranted. However, the policy will be supplemented to ensure DoD activities
evaluate the fees of assisting agencies. The Director of Defense Procurement and
Acquisition Policy is developing an umbrella Memorandum of Agreement to assist

                                            ii
agencies that will address the roles and responsibilities of each party with regard to
contract administration and contract surveillance. In addition, Director of Defense
Procurement and Acquisition Policy disagreed with establishing a policy requiring
classified work to be processed through DoD contracting offices. However, the Director
agreed to issue a policy memorandum to ensure contracting officers have appropriate
clearances for services involving classified information.

The Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer
generally concurred with our recommendations stating that the office will revise the DoD
Financial Management regulations to clarify the requirements for use of the Economy
Act and Other Interagency Orders. In addition, DoD is participating in a government-
wide effort to address intergovernmental transactions. DoD will review standardization
of information requirements for intragovernmental order forms. Also, the Military
Department Assistant Secretaries (Financial Management and Comptroller) and the
Deputy Comptroller (Program/Budget) will confirm that detailed reviews of
commitments and unliquidated obligations occurred. The Deputy Chief Financial Office
directed the Components to initiate preliminary reviews of the 38 potential
Antideficiency Act violations.

Comments from Office of the Under Secretary of Defense for Acquisition, Technology,
and Logistics were partially responsive. Although the Director of Defense Procurement
and Acquisition Policy recently developed policy that allows each of the Services and
Defense agencies to determine who evaluates the options for interagency support, we still
believe a contracting office has a more global understanding of the different purchase
options and the market place. Accordingly, we request that the Director of Defense
Procurement and Acquisition Policy reconsider the recommendation. We also believe
this determination should be documented in writing. Comments on all other
recommendations were responsive. Comments from the Office of the Under Secretary of
Defense (Comptroller)/Chief Financial Office were responsive. We request that the
Under Secretary of Defense for Acquisition, Technology, and Logistics reconsider its
position and provide comments on the final report by August 30, 2005. A discussion of
management comments is in the Finding section of the report and the complete text is in
the Management Comments section.




                                           iii
Table of Contents

Executive Summary                                                             i

Background                                                                   1

Objectives                                                                   4

Finding
     DoD Use of GSA Federal Technology Services                              5

Appendixes
     A.   Scope and Methodology                                              31
     B.   Prior Coverage                                                     33
     C.   Potential Antideficiency Act Violations                            35
     D.   Identified Funding Problems                                        47
     E.   DoD MIPRs Issued to GSA Included in Audit                          52
     F.   Report Distribution                                                62

Management Comments
     Under Secretary of Defense for Acquisition, Technology, and Logistics   64
     Under Secretary of Defense (Comptroller)/Chief Financial Officer        79
     Defense Manpower Data Center                                            88
            Public Law 108-375, the Ronald W. Reagan National Defense Authorization Act
            for Fiscal Year 2005, section 802, “Internal Controls for Department of Defense
            Procurements Through GSA Client Support Centers,” directs the Inspectors
            General for the Department of Defense (DoD) and the General Services
            Administration (GSA) to jointly assess whether the policies, procedures, and
            internal controls of each GSA Client Support Center were in place and
            administered so that they complied with Defense procurement requirements and
            then report the findings to Congress. To comply with the FY 2005 National
            Defense Authorization Act, the Offices of the Inspectors General (OIG) of DoD
            and GSA conducted an interagency audit of DoD purchases made by GSA. We
            were required to evaluate each of the 12 GSA client support centers. Overall, we
            determined that most of the centers were not compliant with DoD procurement
            requirements but were making significant progress towards becoming compliant.
            This report addresses problems noted in DoD during the review. The GSA OIG
            addressed acquisition problems found at GSA in its report titled, “Compendium
            of Audits of Federal Technology Service Client Support Center Controls,”
            June 14, 2005. The OIGs of DoD and GSA transmitted a summary of the joint
            review to Congress on March 15, 2005, and provided briefings to staff of the
            Senate Armed Services Committee on March 17, 2005, and staff of the House
            Armed Services Committee on March 30, 2005.

Background
            The GSA Federal Technology Service (FTS) assists Federal agencies in
            identifying, acquiring, and managing technical solutions. GSA FTS provides the
            Federal Information Technology (IT)1 community a comprehensive range of
            IT products and assisted services on a fully cost-reimbursable basis. Twelve
            client support centers2 perform the acquisition duties. To fund the acquisition of
            IT equipment and services, GSA FTS uses the IT Fund. This revolving fund is
            reimbursed by funds from Federal agencies for whom the equipment and services
            are being acquired. Similarly, GSA FTS uses the General Supply Fund, another
            revolving fund used to purchase professional services. Because of problems
            identified in the IT procurement process, GSA instituted the “Get It Right”
            campaign during July 2004 to ensure proper use of GSA contracting vehicles and
            compliance with Federal Acquisition Regulations.

            Federal Technology Service. The GSA FTS mission is to deliver best value and
            innovative solutions in IT to support Government agency missions worldwide.
            GSA FTS works with Federal government agencies offering assisted acquisition
            services on a fee-for-service basis. Services offered include developing the
1
    Information Technology is equipment or an interconnected system or subsystem of equipment that is used
     in the automatic acquisition, storage, manipulation, management, movement, control, display, switching,
     interchange, transmission, or reception of data or information. Information Technology includes
     computers, ancillary equipment, software, firmware and similar procedures, services (including support
     services) and related resources.
2
    The 12 client support centers include New England (1), Northeast and Caribbean (2), Mid-Atlantic (3),
     Southeast Sunbelt (4), Great Lakes (5), Heartland (6), Greater Southwest (7), Rocky Mountain (8),
     Pacific Rim (9), Northwest/Arctic (10), the National Capital Region (11), and European Region (12). For
     large, complex Federal IT projects, GSA has the Federal Systems Integration and Management Center
     (FEDSIM).



                                                       1
acquisition strategy, preparing the statement of work, determining the best
solicitation approach; conducting the acquisition; signing contracting documents;
providing legal support if required; acting as the contracting officer’s technical
representative on each task order; and managing contract milestones, schedules,
and costs as necessary. According to the GSA Web site, GSA Client Support
Centers select from fully competed, national, multiple award contracts and other
Government-wide sources, including GSA Federal Supply Schedules, to identify
and acquire best value solutions to meet customer requirements.

According to the GSA FY 2004 Performance and Accountability Report, in
FY 2004, GSA employed 12,577 personnel of which 11 percent (1,482) worked
for the Federal Technology Service. GSA FY 2004 IT Solutions revenue and
expenses both totaled approximately $7.2 billion, resulting in no significant
profit.

“Get It Right” Campaign. GSA launched the “Get It Right” Campaign on
July 13, 2004. The campaign reaffirms the GSA commitment to ensuring proper
use of GSA contracting vehicles and services in order to fully comply with
Federal Acquisition Regulations and best practices. The objectives of the
campaign include ensuring compliance with Federal acquisition policies,
regulations, and procedures; ensuring integrity of GSA contract vehicles and
services; improving competition in the marketplace when using those contract
vehicles and services; and ensuring that taxpayers receive the best value for their
tax dollar when GSA contract vehicles or services are used. DoD fully embraced
the “Get It Right” Campaign.

Before the “Get It Right” Campaign, the GSA FTS Commissioner and Chief
Financial Officer implemented internal controls in a June 7, 2004, memorandum,
“Guidance and Information Concerning Interagency Transactions and Proper
Management of Reimbursable Agreements in Revolving Funds” (the GSA June 7,
2004, memorandum). The memorandum states that FTS may not perform
acquisitions or services until an interagency agreement is properly executed and
funded. The scope in interagency agreements must be clearly and sufficiently
detailed. The customer agency must have a current specific need for IT goods or
services. The memorandum also provides examples of what is acceptable under
the IT Fund as IT.

The GSA FTS Commissioner and Deputy Chief Acquisition Officer also issued
an August 27, 2004, memorandum, “Acquisition of Technology Services” (the
GSA August 27, 2004, memorandum). The memorandum stated “Effective
October 1, 2004, interagency agreements for IT services between FTS and
customer agencies will first be subjected to the principles outlined in the GSA
June 7, 2004 memorandum and the statutes cited therein.”

In addition, the GSA Senior Procurement Executive issued an October 1, 2004,
memorandum, “Purchases on Behalf of Other Agencies” (the GSA October 1,
2004, memorandum) stating, “it is imperative that when purchasing on behalf of a
requiring agency that GSA contracting activities apply the regulatory and
statutory requirements applicable to the requiring agency for which the order is
placed.”


                                     2
Clinger-Cohen Act. The Information Technology Management Reform Act of
1996, also known as the Clinger-Cohen Act (the Act) defines IT. The Act assigns
overall responsibility for the acquisition and management of IT to the Director,
Office of Management and Budget. The primary purposes of the Act were to
streamline IT acquisitions and emphasize life-cycle management of IT as a capital
investment. The Clinger-Cohen Act also provides specific statutory authority for
the IT Fund.

IT Fund. Section 757, U.S. Code, title 40 (40 U.S.C. 757) establishes the GSA
IT Fund. The IT Fund allows GSA to efficiently provide IT resources to Federal
agencies. As a revolving fund, the IT Fund provides a financial mechanism for
GSA to pay vendors for IT and telecommunication costs, bill the Federal agency
that received the IT goods and services, and then receive reimbursement for the
costs billed. Once a requesting agency enters into a binding reimbursable
agreement with FTS, the requesting agency may record an obligation in its
accounting system. The agreement must be specific, definite, and certain at the
time it is made, and must then reflect a bona fide need of the DoD. Acceptance of
DoD funds into the IT Fund does not permit DoD to place new orders for goods
or services after the DoD appropriation has expired.

General Supply Fund. Section 321, title 40, U.S. Code, establishes the General
Supply Fund. The General Supply Fund is also a revolving fund that allows full
cost recovery for GSA. The General Supply Fund is the GSA mechanism for
acquiring professional services (non-IT) contracts. The fund is also available for
procuring personal property and nonpersonal services for Federal agencies.

DoD Use of GSA. DoD uses DoD Form 448, Military Interdepartmental
Purchase Request (MIPR) to transfer funds within the Services and to other
Federal agencies. A MIPR is a request for materiel, supplies, or services. DoD
sends reimbursable MIPRs to procure services and supplies from GSA. MIPRs
are usually used to transfer funds to other Federal agencies under the authority of
the Economy Act and in compliance with the DoD FMR, volume 11A, chapter 3,
“Economy Act Orders.” However, DoD issues MIPRs to GSA requesting IT
goods and services under the Clinger-Cohen Act. Accordingly, the MIPRs
sending funds to the GSA IT Fund are reimbursable orders and not Economy Act
Orders.

In FY 2004, DoD sent approximately 24,000 MIPRs to GSA, representing more
than 85 percent of the business transacted by Regional Client Support Centers.
GSA FTS received approximately $8.5 billion for the Network Services Program,
client support centers, and other miscellaneous programs. In the fourth quarter of
FY 2004, DoD sent more than $1 billion. See Table 1 for details of the fourth
quarter FY 2004 use of GSA.




                                     3
                 Table 1. FY 2004 DoD 4th Quarter Use of GSA*
                                  (in millions)

              Army                                                $366.8
              Navy                                                 295.9
              Air Force                                            234.2
              DoD                                                  122.4

              Total                                             $1,019.3
              *DoD values were provided by GSA Operational Management
              Information System (OMIS) and GSA Contract Order Database
              (CODB) databases which, when reconciled at DoD activities,
              were found to be inaccurate.




Objectives
    Our overall audit objective was to evaluate the internal control over DoD
    purchases through GSA. Specifically, we examined whether there was a
    legitimate need for DoD to use GSA, whether DoD requirements were clearly
    defined, and whether funds were properly used and tracked. See Appendix A for
    a discussion of the scope and methodology. See Appendix B for prior coverage
    related to the objectives.




                                         4
            DoD Use of GSA Federal Technology
            Services
            GSA contracting officials and DoD management officials did not comply
            with the U.S. Constitution, appropriations law, and the Federal
            Acquisition Regulation (FAR) when making purchases through GSA. Of
            the 75 purchases reviewed that were funded by 144 MIPRs valued at
            about $406 million, 74 were either hastily planned or improperly funded.
            Specifically,

                    •   On 68 of 75 purchases, or 91 percent, DoD organizations
                        lacked acquisition planning to determine that contracting
                        through GSA was the best alternative available.

                    •   On 74 of 75 purchases, or 99 percent, DoD organizations did
                        not have adequate interagency agreements with GSA outlining
                        the terms and conditions of the purchase.

                    •   On 38 of 75 purchases, or 51 percent, either GSA or the
                        requesting activity improperly used Government funds. DoD
                        organizations either did not have a bona fide need or funded
                        the purchase with an incorrect appropriation.

                    •   On 44 of 75 purchases, or 59 percent, DoD did not maintain an
                        audit trail of the funds used to make the purchase.

            Before GSA and DoD initiated the “Get It Right” Campaign, guidance on
            the use of the GSA Information Technology Fund was widely
            misunderstood. In addition, DoD funding guidance and the use of
            interagency agreements for non-DoD purchases was unclear.
            Consequently, DoD organizations have numerous potential Antideficiency
            Act violations. Additionally, the mismanagement and lack of planning for
            the funds transferred to GSA over the last 5 years has resulted in from
            $1 billion to $2 billion of DoD funds to either expire or otherwise be
            unavailable for use. Lastly, DoD organizations making purchases through
            GSA had no assurance that GSA based purchases on best value.


Criteria
     The United States Constitution. Realizing the importance of providing for
     accurate accounting of public monies spent for the defense of the United States of
     America, the framers of the Constitution addressed the area of appropriated funds
     in two different sections of Article I of the United States Constitution. Article I,
     section 8, clause 12, states that Congress shall have the power “To raise and
     support Armies, but no Appropriation of Money to that Use shall be for a longer
     Term than two Years.” Article I, section 9, clause 7, states that, “No Money shall
     be drawn from the Treasury, but in Consequence of Appropriations made by Law;
     and a regular Statement and Account of the Receipts and Expenditures of all


                                          5
           public Money shall be published from time to time.” Current appropriation acts
           shepherd the requirements of the Constitution to the present day.

           The Antideficiency Act. The Antideficiency Act is codified in a number of
           sections of Title 31 of the United States Code (such as 31 U.S.C. 1341(a), 1342,
           1349-1351, 1511(a), 1512-1519). The purpose of these statutory provisions,
           known collectively as the Antideficiency Act, is enforcing the Constitutional
           powers of the purse residing in Congress with respect to the purpose, time, and
           amount of expenditures made by the Federal Government. Violations of other
           laws may trigger violations of the Antideficiency Act provisions (for example, the
           “bona fide needs rule,” 31 U.S.C. 1502(a); the “purpose statute,” 31 U.S.C.
           1301(a); and violations of various statutory spending limitations such as, 10
           U.S.C. 2805, “Unspecified minor construction”). Where this audit finds potential
           violations of the Antideficiency Act, the report is referring specifically to 31
           U.S.C. 1341(a)(1)(A) and 1341(a)(1)(B).

           Bona Fide Needs Rule. To use appropriated funds, there must be a bona fide
           need for the requirement in the year the appropriations are available for
           obligation. Section 1502(a), title 31, United States Code states,
                         The balance of an appropriation or fund limited for obligation to a
                         definite period is available only for payment of expenses properly
                         incurred during the period of availability or to complete contracts
                         properly made within that period of availability and obligated
                         consistent with section 1501 of this title. However, the appropriation
                         or fund is not available for expenditure for a period beyond the period
                         otherwise authorized by law.

           To meet bona fide need rule requirements, the Under Secretary of Defense
           (Comptroller)/Chief Financial Officer (USD(C))has specified that funds for
           severable services3 must be obligated in the year of the appropriation funding the
           services, and the contract period of the services cannot exceed 1 year. Ordered
           goods must be received in the year of the appropriation unless there is a known
           production or delivery lead-time, or unforeseen delays in delivery.

           DoD Financial Management Regulation (FMR) Guidance. Annual
           appropriation acts define the uses of each appropriation and set specific timelines
           for use of the appropriations. However, the DoD FMR, volume 2A, chapter 1,
           provides guidelines on the most commonly used DoD appropriations for
           determining the correct appropriation to use when planning acquisitions.

                  Research, Development, Test, and Evaluation (RDT&E). USD(C)
           memorandum, “Clarification of Policy – Budgeting for Information Technology
           and Automated Information Systems,” October 26, 1999, further clarifies the use
           of RDT&E funds for IT purchases. DoD organizations fund development, test,
           and evaluation requirements, including designing prototypes and processes, with
           RDT&E appropriations. DoD organizations use RDT&E funds to develop major
           system upgrades, to purchase test articles, and to conduct developmental testing

3
    Most service contracts are severable. A non-severable contract would have a primary deliverable such as
    a prototype system or a completed report at the end of the performance period.

                                                       6
and initial operational testing and evaluation before they accept systems and have
them produced. In general, RDT&E funds should be used for all developmental
activities involved with new systems or major upgrades. RDT&E funds are
available for obligation for 2 years.

       Operation and Maintenance (O&M). Expenses incurred in continuing
operations and current services are funded with O&M appropriations. The
USD(C) considers all modernization costs under $250,000 to be expenses, as are
one-time projects such as developing planning documents and conducting studies.
O&M funds are available for obligation for 1 year.

       Procurement. The acquisition and deployment of a complete system or
the modification of a system with a cost of $250,000 or more is an investment and
should be funded with a procurement appropriation. Complete system cost is the
aggregate cost of all components (for example, equipment, integration,
engineering support, and software) that are part of, and function together, as a
system to meet an approved documented requirement. For modification efforts,
count only the cost of the upgrade (for example, new software, hardware, and
technical assistance) towards the investment threshold. Procurement funds are
available for obligation for 3 years.

       Defense Working Capital Fund. The Defense Working Capital Fund is
a revolving fund, which means that it relies on sales revenue instead of direct
appropriations to finance its operations. A DoD organization that has a Defense
Working Capital Fund receives reimbursements from another organization for the
goods purchased or the services rendered. The revolving fund operates on a
break-even basis over time, that is, the DoD organization operating the Defense
Working Capital Fund neither makes a profit nor incurs a loss. Rates are adjusted
annually to keep the fund in balance. Defense Working Capital Funds do not
have a restriction on the time they are available for obligation.

        Military Construction. A military construction project includes the cost
of all military construction work to produce a complete and usable facility or a
complete and usable improvement to an existing facility. Section 2802, title 10,
United States Code, states that the Secretary of Defense and the Secretaries of the
Military Departments may carry out such military construction projects as are
authorized by law. Section 2805, title 10, United States Code, states that the
Secretary of Defense and the Secretaries of the Military Departments may carry
out unspecified minor construction projects equal to or less than $1.5 million. If
the project is to correct a deficiency that is life, health, or safety threatening, then
the Secretary may approve the project to cost up to $3 million. Military
construction funds are available for obligation for 5 years.

Agency Agreements. Section 1535, title 31, United States Code,
(31 U.S.C. 1535), “Agency Agreements,” allows the head of an agency or major
organizational unit within an agency to place an order with another agency for
goods or services if amounts are available, it is in the best interest of the U.S.
Government, the other agency can fill the order, and the order cannot be provided
by contract as conveniently or economically by a commercial enterprise.




                                       7
        Economy Act Orders. The Economy Act authorizes agencies to enter
into mutual agreements to obtain supplies or services by interagency or intra-
agency acquisition. The Economy Act applies when more specific statutory
authority does not exist. Each Economy Act order must be supported by a
Determination and Finding. The Determination and Finding must state that the
use of an interagency acquisition is in the best interest of the U.S. Government
and the supplies or services cannot be obtained as conveniently or economically
by contracting directly with a commercial enterprise. A contracting officer of the
requesting agency with authority to contract for the supplies or services to be
ordered, or another official designated by the agency head must approve the
Determination and Finding.

        DoD Policy on Interagency Agreements. DoD Instruction 4000.19,
“Interservice and Intragovernmental Support,” August 9, 1995, implements
policies, procedures, and responsibilities for intragovernmental support as a result
of agreements among Federal Government activities. DoD organizations may
enter into interagency agreements with non-DoD Federal activities when funding
is available to pay for the support, the agreement is in the best interest of the
Government, the supplying activity is able to provide the support, the support
cannot be provided as conveniently or economically by a commercial enterprise,
and the agreement does not conflict with any other agency’s authority.
Determinations must be approved by the head of the major organizational unit
ordering the support and must be attached to the agreement.

        Recent DoD Guidance on Interagency Agreements. The Acting Under
Secretary of Defense for Acquisition, Technology, and Logistics issued an
October 29, 2004, memorandum, “Proper Use of Non-DoD Contracts” (the DoD
October 29, 2004, memorandum) directing the Military Departments and Defense
agencies to establish procedures for reviewing and approving the use of non-DoD
contract vehicles by January 1, 2005. The program manager or requirements
official has primary responsibility to ensure compliance with the policy. The
procedures must include:

       •   evaluating whether using a non-DoD contract is in the best interest of
           DoD,

       •   determining whether the tasks are within the scope of the contract to
           be used,

       •   reviewing funding to ensure that it is used in accordance with
           appropriation limitations, and providing unique terms, conditions, and
           requirements to the assisting agency for incorporation into the order or
           contract to comply with all applicable DoD-unique requirements.

The Navy and the Air Force both issued memoranda entitled “Proper Use of Non-
DoD Contracts.” Both memoranda implemented guidance and policy for the
Acting Under Secretary for Acquisition, Technology, and Logistics. The
Air Force and Navy memoranda were dated December 6 and December 20, 2004,
respectively.



                                     8
    The DoD Deputy Chief Financial Officer issued a March 24, 2005, memorandum,
    “Proper Use of Interagency Agreements for Non-Department of Defense
    Contracts Under Authorities Other Than the Economy Act” (the DoD Deputy
    Chief Financial Officer March 24, 2005, memorandum). This memorandum, in
    conjunction with the DoD October 29, 2004, memorandum establishes DoD
    policy on assisted acquisitions such as those completed by GSA FTS and ensures
    that interagency agreements (under other than the Economy Act) for non-DoD
    contracts are used in accordance with existing laws and DoD policy. To save
    Government resources, the DoD Deputy Chief Financial Officer March 24, 2005,
    memorandum directs the following actions:

           •   For services ordered through an interagency agreement, funds
               provided to the servicing agency that have expired must be
               deobligated and returned from the servicing agency unless the request
               for services was made during the period of availability of the funds;
               the order was specific, definite, and certain, with specificity similar to
               contractual orders; and severable services were ordered with a period
               of performance that does not exceed one year.

           •   For goods ordered through an interagency agreement, funds provided
               to the servicing agency that have expired must be deobligated and
               returned from the servicing agency unless the request for goods was
               made during the period of availability of the funds and was for goods
               that solely because of delivery, production lead time, or unforeseen
               delays, could not be delivered within the period of availability of those
               funds.

    FAR Criteria. FAR Part 7, “Acquisition Planning” details the Federal
    requirements for acquisition planning. FAR Subpart 7.102(b) states that agencies
    must perform acquisition planning for all acquisitions.
               This planning shall integrate the efforts of all personnel responsible for
               significant aspects of the acquisition. The purpose of this planning is
               to ensure that the Government meets its needs in the most effective,
               economical, and timely manner.

    FAR Subpart 7.105 requires organizations to consider acquisition alternatives and
    prospective sources of supplies and services that will meet their need.

    FAR Part 10, “Market Research,” requires that agencies use the results of market
    research to determine the sources capable of satisfying the agency’s requirements.
    Acquisition planning should indicate the prospective sources of supplies and
    services that can meet the DoD requirement.


DoD Planning for GSA Goods and Services
    DoD auditors visited 16 organizations that sent funds to GSA using MIPRs for
    the purchase of goods and services. Results among the 16 DoD organizations
    reviewed included that the organizations did not:


                                              9
       •   perform a basic market analysis to determine whether GSA was the
           best option to fulfill the requirement;

       •   enter into interagency agreements with GSA that were specific,
           definite, and certain;

       •   properly complete the MIPRs used to fund their purchases; and,

       •   ensure that GSA personnel held security clearances needed to manage
           classified projects.

Acquisition Planning. Of 75 GSA purchases reviewed at 16 different DoD
activities, 68 were not supported by documentation showing that making the
purchase through GSA was in the best interest of the Government. DoD
organizations should decide to purchase goods or services through a non-DoD
activity such as the GSA IT Fund during initial acquisition planning. Assisted
acquisitions such as those done by GSA FTS include a surcharge usually of from
2 to 5 percent. Since DoD transferred approximately $8.5 billion to GSA FTS in
FY 2004, DoD is providing GSA between $170 million to $425 million in
surcharges that might have been put to better use in DoD if a DoD contracting
officer had been a viable option instead of GSA.

Basic acquisition planning ensures that requiring organizations consider
procuring alternatives before acquiring the goods and services. Agency planning
should address specific requirements through a preliminary statement of need or
statement of work. In addition, thorough acquisition planning provides realistic
delivery and performance schedules, identifies planned management
responsibilities for contract performance, and develops a tentative cost basis for
the purchase.

        Acquisition Alternatives. DoD purchases through GSA consistently
lacked basic acquisition planning including planning for and considering
acquisition alternatives. For example, on September 24, 2004, the Army Reserve
Command sent funds to GSA, including a 5 percent surcharge, to purchase steam
cleaners costing $48,629. The GSA contracting officer simply procured the steam
cleaners from a GSA Federal Supply Schedule. A DoD contracting officer could
have purchased the steam cleaners from the GSA Federal Supply Schedule as
easily as the GSA contracting officer and saved the 5 percent surcharge.

        The Space and Naval Warfare Systems Command Task Order
Administrator stated that command project office personnel liked to use the GSA
Millennia contract because they could select the contractor to perform specific
task orders. The Space and Naval Warfare Systems Command used the GSA
Federal Systems Integration and Management Center Millennia contract
extensively to procure IT services. GSA competitively awarded the Millennia
contract as a Government-wide Acquisition Contract. The Space and Naval
Warfare Systems Command used GSA to place task orders against the Millennia
contract with 1 prime contractor that teamed with 127 subcontractors. The Space
and Naval Warfare Systems Command encouraged program office personnel to
request this contract for miscellaneous items, even with the GSA fee, because of
the flexibility and past experience with the contractor. The DoD Task Order

                                    10
Administrator stated that GSA can award a task order on the Millennia contract
faster than DoD contracting offices can award task orders.

         Improper Use of IT Fund. Of the 75 purchases reviewed, the MIPRs for
50 purchases were sent and accepted as funds to reimburse the GSA IT Fund
under the Clinger-Cohen Act. The MIPRs for 3 purchases were to reimburse the
GSA General Supply Fund, and the MIPR acceptances for 22 purchases did not
specify the fund to be reimbursed. Of the 50 GSA IT Fund purchases, 8 were for
goods or services that were not related to IT. Among non-IT purchases, DoD sent
MIPRs to GSA FTS to fund the construction of buildings, to develop marketing
tools, to receive aerial gunnery training services, and to purchase furniture. For
example, the Program Office at the Air Combat Command used the GSA IT Fund
to acquire combat banner targets for fighter aircraft training. The combat banners
contract was awarded in July 2002 and is used to provide live aerial gunnery
training to the Air National Guard F-15 and F-16 pilots. The Air National Guard
sent $327,000 in FY 2004 O&M funds to GSA on August 19, 2004, to purchase
from this contract. Aside from GSA having very little, if any, experience in
acquiring combat banner targets, the whole idea was inappropriate for using the
IT Fund. Initially, the contract was in the IT Fund, but in December 2004, GSA
FTS officials determined that the General Supply Fund should be used for the
contract. This purchase did not constitute an information technology buy and was
not proper under the Clinger-Cohen Act.

        Interagency Agreements. Of 75 purchases reviewed, 53 had no related
interagency agreement, and 21 had inadequate interagency agreements because
the agreement did not address the specific purchase. The interagency agreements
available were incomplete because they do not include information required by
DoD Instruction 4000.19 such as detailed descriptions of the goods and services
being procured and the terms and conditions for the procurement services being
provided by GSA. For example, the Deputy Director, Defense Manpower Data
Center signed a Service Agreement with GSA. The “boilerplate” agreement lists
the GSA authority for use of the IT Fund, the required scope for using GSA,
general information that should be provided on a MIPR, and GSA and DoD
points of contact. However, the interagency agreement lacks specific information
about individual purchases, funding for purchases, or management oversight of
purchased services. The agreement does not state program management office or
GSA contracting officer responsibilities. Some DoD organizations used the
MIPR funding document without an additional interagency agreement. However,
the MIPRs reviewed for this audit did not meet the DoD criteria for required
information within interagency agreements.

        MIPR Preparation. Of 144 MIPRs reviewed, none was found to contain
the required information necessary for interagency transactions. DoD
organizations issued MIPRs that either lacked a specific, detailed description of
the goods or services to be acquired or failed to specify the period of performance
that purchased services would occur. For example, the National Guard Bureau
issued a MIPR for services related to a Weapons of Mass Destruction First
Response Equipment purchase totaling $7.0 million. The MIPR description is
broad and general and lacked specifics to support the basis for the funds. The
MIPR omitted any reference to the statement of work containing the purpose and



                                    11
    detailed requirements. Additionally, the MIPR lacked the period of performance
    during which the contractor would supply the services.

    Section 1501, title 31, United States Code, (31 U.S.C. 1501), “Documentary
    Evidence Requirement for Government Obligations,” requires a binding
    agreement between two agencies in writing that will report the specific goods to
    be delivered, real property to be bought or leased, or work or services to be
    provided. DFARS 253.208-1, “Military Interdepartmental Purchase Requests,”
    requires reporting a realistic time of delivery or performance on each MIPR.
    When preparing a MIPR, DoD organizations should include a reference to an
    interagency agreement, statement of work, task order, modification or other
    contractual document that contains a specific description of goods and services
    being procured including the expected periods of performance to provide a sound
    basis for the use of DoD funds.

            Security Requirements. DoD requested contracting services from GSA
    for secure programs, and GSA awarded contracts for secure services when
    reviewing officials did not have the necessary level of clearances to review
    significant portions of contract products. The Federal Systems Integration and
    Management Center disclosed that contracting officials assigned contract
    oversight functions did not have the appropriate clearances to monitor contractor
    performance. OIG GSA reported another example in Report
    No. A040126/T/3/Z05005, “Audit of Federal Technology Service’s Client
    Support Center Mid-Atlantic Region,” December 9, 2004. The Air Force Air
    Combat Command used GSA to contract for national security work that would
    support intelligence, surveillance, and reconnaissance operations and planning for
    the Senior Year (U-2) Program, valued at more than $12 million. OIG GSA
    reported that about 30 percent of the documentation generated under the contract
    task order was classified and could only be reviewed by individuals possessing a
    Secret clearance. About 3 to 5 percent of the work required a Top Secret
    clearance before it could be examined. Neither the GSA IT manager or the
    contracting officer responsible for the contract task order possessed either type of
    clearance.


Improper Use of Government Funds
    On 38 of 75 purchases, or 51 percent, the requesting activity improperly used
    Government funds. DoD organizations either did not have a bona fide need in the
    year of the appropriation used or funded the purchase with an incorrect
    appropriation. On 44 of 75 purchases, or 59 percent, DoD did not maintain an
    audit trail of the funds used to make the purchase. DoD auditors reviewed the
    procedures and controls related to 144 MIPRs, valued at approximately
    $406 million, that went to 8 separate GSA Client Support Centers or the National
    GSA Office predominately during the fourth quarter of FY 2004. Preliminary
    acquisition planning involving a qualified DoD contracting officer and early
    communication with GSA can prevent the improper use of Government funds,
    ensure that DoD purchases made through GSA and other non-DoD activities are
    made in the best interest of DoD, prevent future Antideficiency Act violations,


                                         12
prevent the loss of DoD funds through improper spending, and help ensure that
DoD receives best value acquisitions.

Use of Government Funds. Because 40 U.S.C. 757, the law that establishes the
IT Fund, states that the fund “shall be available without fiscal year limitation,”
both GSA and DoD officials thought that funds accepted by GSA into the
revolving IT Fund were available without limitation by fiscal year or use. This
lead to the idea that expiring funds could be “parked” or “banked” at GSA for
future purchases. To the contrary, the statement “shall be available without fiscal
year limitation” applies to the capitalized fund itself. The funds reimbursing the
capitalized fund must follow appropriations law. By not following the legal
restriction on appropriations to have a bona fide need for the funds in the year
appropriated, GSA and DoD organizations incorrectly used the GSA IT Fund to
extend the time period funds were available for use. The GSA acceptance of
funds into the IT Fund did not allow an agency to extend the periods of
availability of appropriations or change the restrictions of appropriations beyond
that which Congress enacted in annual appropriations acts.

        Bona Fide Need. For 30 purchases of the 75 reviewed, DoD funding
authorities violated the bona fide needs rule by using the annual O&M
appropriation to fund the purchase of severable services that met a bona fide need
in the following fiscal year, or goods that were received after the year of the
appropriation but could not be justified because of delivery time, production lead-
time, or unforeseen delays. For example, the Air Force Medical Supply Agency
sent two MIPRs, with FY 2004 O&M funds cited, valued at approximately
$2 million, to GSA for Web management design services. GSA awarded the
contract on January 28, 2004, with the period of performance from January 26,
2004, through January 25, 2005, and four option years.

To evade the requirements of the GSA June 7, 2004, memorandum before its
effective date of October 1, 2004, DoD and GSA officials decided to exercise the
FY 2005 option year for the Web management design services on September 29,
2004. The funds used to exercise the option came from eight MIPRs GSA had
received from the Air Force Medical Supply Agency in FYs 2002 and 2003.
Residual funds valued at approximately $200,000 remained on the two FY 2002
MIPRs. Residual funds valued at approximately $1 million remained on the six
FY 2003 MIPRs. DoD and GSA officials used the residual funds from FYs 2002
and 2003 to fund the Web management design contract FY 2005 option year at a
cost of approximately $1.2 million. A GSA contracting officer memorandum to
the file states, “Per funding guidance, FY 2003 funds needed to be obligated by
9/30/04, or be lost. Based on this guidance, the first option year was exercised
early.” The file also contains e-mails from the GSA contracting officer to DoD
officials advising that all prior year funding on MIPRs would have to be returned
if not placed on task orders by September 30, 2004. The GSA contracting officer
provided DoD officials a listing of MIPRs with residual funds to be awarded by
September 30, 2004, or be lost. The GSA contracting officer requested that DoD
officials review the MIPRs to determine whether the language allowed for
funding to be used on the existing task, and if so, option year 1 could be exercised
early and awarded by September 30, 2004. DoD officials correctly funded the
FY 2004 base year with FY 2004 O&M funds. However, DoD officials funded
the FY 2005 option year with a combination of FYs 2002 and 2003 O&M funds.


                                     13
In accordance with appropriation law and the GSA June 7, 2004, memorandum,
the FY 2002 and FY 2003 funds were no longer available. DoD and GSA
officials should have been aware that the requirements of the memorandum were
based on legal restrictions placed on appropriations and should have returned the
funds to DoD instead of ignoring legal requirements until the effective date of the
memorandum. Also, the Air Force Medical Support Agency used O&M funds to
purchase developmental type equipment. RDT&E funds should have been used.
See number 32. Web Management Design in Appendix C page 44 for additional
details.

In addition, in August 2003, the Air Force Air and Space Operations approved
and sent $351 million of Global War on Terrorism funds to the Electronic
Systems Center Force Protection Command and Control System Program Office
(ESC/FD) to support force protection operations. ESC/FD sent three MIPRs,
valued at $171 million, with FY 2003 O&M funds, to GSA to purchase unmanned
“smart gates” on five planned contracts to achieve this objective. See figure 1 for
a picture of the smart gate.




       Figure 1. Unmanned Smart Gate with vehicle barrier.

GSA awarded two of the five planned contracts in FY 2004. One was for thermal
imager equipment awarded on December 12, 2003, funded for approximately
$4 million; and the second was for vehicle barriers awarded on April 30, 2004,
funded for approximately $37 million. GSA awarded the vehicle barriers contract
a full 7 months after the funds expired. GSA has not awarded the remaining three
contracts worth approximately $130 million. The ESC/FD FY 2003 O&M funds
used to fund this GSA purchase expired on September 30, 2003. In addition,
ESC/FD expected the contractor to have the test vehicle barrier fully installed and
tested at Eglin Air Force Base by the end of October 2004; more than 1 year after
GSA accepted the MIPRs, and the installation schedules clearly show that the
requirement was severable in that the contractor would deliver and install the
barriers over several years with the last installation occurring in FY 2006. There

                                    14
was no interagency agreement made during the period of availability of the funds
other than the three MIPRs that funded the purchase. Those three MIPRs were
not specific, definite, and certain with specificity similar to that found in contract
orders. Further, ESC/FD never expected the contractor to deliver goods
purchased within the period of availability of the funds. Awarding the remaining
three contracts in FY 2005 citing FY 2003 O&M funds will violate the bona fide
need rule. In accordance with the DoD Deputy Chief Financial Officer March 24,
2005, memorandum, ESC/FD needs to initiate actions immediately to coordinate
with GSA and return the expired funds and begin a preliminary review to
determine whether an Antideficiency Act violation occurred.

       Wrong Appropriation. For 15 of the 75 purchases, DoD organizations
used the wrong appropriation to fund the requirement. For example, the Program
Manager, Defense Communications and Army Transmission Systems
(PM/DCATS), sent 18 MIPRs citing O&M funds valued at approximately
$44 million, to GSA for the Army Materiel Command Headquarter Relocation
purchase. For that purchase, GSA contracted for the construction of two modular
two-story office buildings totaling about 230,000 square feet at Fort Belvoir to
serve as the new Headquarters of the Army Materiel Command and offices for
about 1,400 civilian and military personnel. See figure 2 for a picture of the
Headquarters.




       Figure 2. Army Materiel Command Modular Headquarters Building.

        Although building construction is not a line item in the contract, no
modular building existed at the site prior to the contract. In addition to the cost of
the buildings, the PM/DCATS contract contained a line for an annual charge of
$7 million to use the buildings. PM/DCATS officials stated that using O&M
funds for the use of the buildings was correct because the contractor is providing
a service (the use of the buildings) and that because there will be no transfer of
ownership at the end of the contract, the cost of the buildings is not a capital
lease. Therefore, the officials believed that it is proper to use O&M funds for the
building instead of Other Procurement, Army funds that would be used for a
capital lease or Military Construction, Army funds that would be used for
construction. The Army Materiel Command General Counsel stated that the use
of funds was for facilities under an operations lease and, at the end of the lease,
the buildings are removable and no ownership occurs. However, the contractor
installed and assembled the building; performed welding on the plates and piers;


                                     15
and carpenters, cement masons, electricians, and ironworkers worked on the
interior. The procurement of these buildings was clearly a construction project
and Military Construction, Army was the proper appropriation to use.

        Section 2801(a), title 10, United States Code, defines military construction
as “…any construction, development, conversion, or extension of any kind
carried out with respect to a military installation.” This applies to satisfy
temporary or permanent requirements. The FMR, volume 2A, chapter 1 defines
construction as “the erection, installation, or assembly of a new facility; the
addition, expansion, alteration, conversion, or replacement of an existing facility;
the acquisition of a facility or the relocation of a facility from one installation to
another.” Further, construction includes real property equipment installed and
made an integral part of such facilities, related site preparation, and other land
improvements. DoD prohibits planned acquisition or improvements to a facility
through a series of minor construction projects to circumvent the use of Military
Construction Funds. New buildings existed because of this purchase through the
GSA. Therefore, this is a construction project requiring PM/DCATS to request
Military Construction Funds from Congress for this purchase.

Audit Trail of Funds. DoD organizations did not track funds by MIPR to the
payment of invoices on 44 of 75 purchases reviewed. DoD considers funds to be
obligated when GSA returns a MIPR Acceptance document (DD Form 448-2),
not when the funds are placed on contract. DoD officials often do not track funds
past that point of obligation. However, DoD officials should be identifying funds
sent to GSA now available for recoupment during required triannual reviews.
DoD FMR, volume 3, chapter 8 requires triannual reviews of commitments and
obligations for timeliness, accuracy, and completeness during each of the 4-month
periods ending on January 31, May 31, and September 30 of each fiscal year. The
requirement for reviews of commitments and obligations applies to all
appropriations and funds of all DoD Components, including direct appropriations
and reimbursable transactions. However, DoD will not be able to accurately
account for funds available at GSA until GSA provides DoD officials with an
accurate accounting of funds received, placed on contract, and available for
recoupment on a periodic basis.

Though DoD transferred to GSA client support centers approximately
$15.4 billion of reimbursable funds during the past 2 years for purchases, no
central database existed at DoD or GSA to track the funds. GSA was able to
identify DoD funds because DoD uses MIPRs with unique numbering systems to
fund purchases. However, the different military services and even commands
within each service have different methods of numbering MIPRs. The only
standard is alphanumeric document number of at least 13 digits. Another
complication in establishing an audit trails is the fact that one MIPR may contain
the funds for several different projects or an incremental time period of one
project. To add to the confusion, DoD financial personnel performed no checks
and balances before paying a GSA invoice. One invoice from GSA may contain
billings for payments against several purchases funded by several different
MIPRs. Furthermore, it was GSA policy prior to the “Get It Right” campaign to
bill DoD on a “First-In, First-Out” method meaning that the first MIPR received
from DoD was the MIPR billed regardless of year of funds or appropriation type.
When we asked a Defense Financial and Accounting Service office how DoD

                                     16
        monitored the payment of GSA invoices, we were told that “we pay as long as we
        got money.”

        The GSA databases are unreliable. GSA uses the Operational Management
        Information System (OMIS) for the national office and the Contract Order
        Database (CODB) for the regional client support centers to record funding
        documents. GSA is implementing a new system at 2 of its 12 regions, but at the
        time of this audit, the new system was being reworked. At 10 DoD organizations,
        DoD OIG compared the fourth quarter FY 2004 MIPRs listed from the GSA
        databases to the MIPRs the organization recorded as being sent to GSA. We did
        not compare MIPR information at the other six locations reviewed. At the
        10 locations compared, the GSA databases were missing significant numbers of
        MIPRs and contained MIPRs from other locations. At the 10 locations, GSA
        records indicated that they had received 612 MIPRs. However, DoD
        organizations’ records indicated that 667 MIPRs were sent to GSA with an
        overall monetary difference of more than $208 million. See Table 2 for locations
        and number of MIPRs at GSA and the DoD organizations for the fourth quarter of
        FY 2004.




            Table 2. Comparison of MIPRs at GSA and DoD Commands

                                                                      Absolute Value
Command                              GSA List       Command List      Difference($000)

Army Materiel Command                   31                24                    $80,085

Army Accession Command                  16                48                    $23,942

Army Reserve Command                    22                15                     $4,783
National Guard Bureau                   51                52                    $37,911

Naval Education and Training            29                30                     $7,884
   Command
Naval Reserve Forces Command            19                20                       $470

Space and Naval Warfare                297               198                    $15,504
   Systems Command

Space and Naval Warfare                 87               183                    $25,783
   Systems Center, New Orleans
Air Combat Command                      38                76                    $10,560

U.S. Southern Command                   22                21                     $1,358

Total                                  612               667                  $208,281

                                             17
     Discussion with GSA officials revealed several causes for the discrepancies.
     First, GSA does not uniformly input data. For example, different GSA regions
     may list the Army Accession Command as such, as the Army Recruiting
     Command (the former name of the command), as USAAC, or as ARC. GSA
     reported that they had received 16 MIPRs from the Army Accession Command,
     which reported that it had sent 48 MIPRs to GSA. Secondly, GSA may enter the
     name of many subordinate commands located throughout the country as the name
     of the primary command. For example, GSA reported that they had received
     297 MIPRs from the Space and Naval Warfare System Command, which reported
     that they had sent 198 MIPRs to GSA. The auditors that reviewed the Space and
     Naval Warfare Systems Command determined that the difference came from
     subordinate commands. Additionally, the GSA databases do not contain real time
     data and according to where an individual MIPR is at any given point in the
     acceptance process, GSA may or may not have inputted the MIPR into the
     database. In addition, the databases cannot be queried by all data fields, for
     instance, GSA cannot query the databases by the MIPR date. The database
     information could not be reconciled with DoD organization records.


Contract Surveillance
     For the 75 DoD purchases reviewed, there was no evidence of agreed upon
     procedures identifying the roles and responsibilities for performing contractor
     surveillance. Agreed upon procedures are important due to the confusion
     interagency contracting arrangements can cause where the contracting office is
     from one Federal agency that is providing a service for fee while the requiring
     office is from another Federal agency. GSA charges DoD a procurement
     surcharge of 2 to 5 percent to provide procurement services which can include
     contractor surveillance. However, without agreed upon procedures identifying
     the roles and responsibilities for performing contractor surveillance DoD could be
     paying GSA for surveillance services not performed.
     DoD Contracting Officers’ Representatives. Defense Federal Acquisition
     Regulation Subpart 201.6, “Contracting Authority and Responsibilities,” states
     that contracting officers may designate qualified personnel as their authorized
     representatives to assist in either technical monitoring or administration of a
     contract. GSA contracting officers identified DoD personnel as contracting
     officers’ representatives for 37 of the 75 purchases. DoD requiring offices
     identified in-house technical points of contact for the remaining 38 purchases
     reviewed. However, there was no clear guidance explaining the specific
     surveillance steps DoD and GSA personnel should perform.

     DoD and GSA Combined Procedures for Performing Contractor
     Surveillance. GSA OIG recently identified and reported on problems occurring
     in contractor oversight. The GSA “Compendium of Audits of the Federal
     Technology Service Regional Client Support Centers,” December 14, 2004 (the
     GSA Compendium Audit), identified that because of inadequate contract


                                         18
    administration and project management, GSA client support centers had problems
    related to

           •   payments made for substandard work,

           •   work that was incomplete or never delivered to the Government,

           •   bills that contained incorrect labor rates or did not adhere to the base
               contract pricing terms,

           •   unsubstantiated costs, and

           •   equipment substitutions with substantial markup costs.

    The report also identified that the majority of contract files reviewed by GSA did
    not contain significant documents such as acquisition planning documents and
    independent Government cost estimates. Also missing were required letters of
    designation for contracting officers’ representatives. Such letters document the
    understanding and acceptance of the contracting officers’ representatives assigned
    duties and responsibilities relative to the task orders. The letters also include
    responsibilities for approving or recommending the approval of task order
    modifications, especially extensions of the period of performance and the exercise
    of contract options.

    DoD Surveillance Efforts. In the absence of agreed upon procedures DoD
    officials were unable to show that they were effectively monitoring contractor
    performance against pre-established steps. They were also unable to describe
    specific surveillance steps performed by their GSA counterparts. This
    information would enable DoD requiring offices to determine the overall extent of
    surveillance being performed, areas of duplicated efforts, areas needing
    improvement, and most of all, whether DoD requiring offices requirements were
    being effectively monitored. According to the DoD technical points of contact,
    their surveillance usually consisted of reviewing contractor developed status
    reports, reviewing invoices, and tracking MIPR fund balances. In one situation, a
    DoD technical point of contact stated that the roles and responsibilities for
    contractor surveillance were unclear and resulted in the contractor requesting a
    special meeting after contract award to determine the roles and responsibilities for
    both the GSA and DoD officials performing surveillance. Without clear agreed
    upon roles and responsibilities for contractor surveillance, DoD may be paying
    GSA for contractor surveillance services, when in fact, GSA is not performing
    these services. In addition, establishing clear roles and responsibilities would
    ensure that persons reviewing contract files have the proper security clearance.


Confusing Guidance
    Guidance on the use of the GSA IT Fund was widely misunderstood and Defense
    contractors advertised information that was simply wrong regarding the use of the
    IT Fund. In addition, the lack of planning and competent review of acquisition
    planning resulted in issues of whether DoD was selecting the best contracting


                                         19
            source and using the correct funds to procure goods and services. Exacerbating
            the problem was that the Clinger-Cohen Act allowed DoD to fund GSA contracts
            on a reimbursable basis without preparing a determination and finding to justify
            that the non-DoD purchase was in the best interest of the Government. Finally, as
            stated by the Principal Deputy Under Secretary of Defense (Comptroller) and
            Acting Under Secretary of Defense for Acquisition, Technology, and Logistics,
            non-DoD contracts are not a substitute for poor acquisition planning nor may
            DoD organizations use them to circumvent conditions and limitations placed on
            the use of appropriations.

            DoD Guidance on Use of GSA. The Director Defense Procurement
            Memorandum, “General Services Administration Federal Supply Schedules as
            Preferred Sources of Supply,” March 6, 1997, urges DoD organizations to take
            full advantage of GSA Schedule contracts for needed supplies or services that are
            covered under them. Although this memorandum only addresses GSA Schedule
            contracts, not assisted acquisitions such as when FTS is used, some DoD
            organizations may have thought no justification was necessary for using GSA
            because they were a “preferred source of supply.”

            Associate General Counsel, Department of the Air Force memorandum, “MIPRs
            to the GSA Under Authority of the Information Technology Reform Management
            Act,” September 11, 2002, is an example of much of the legal guidance that exists
            within DoD on use of the IT Fund. The memorandum states,
                         Funds obligated against the IT Fund are available without fiscal year
                         limitation. When an agency transfers funds to GSA pursuant to an
                         interagency agreement, those funds are obligated against the IT Fund.
                         Therefore, those funds are not subject to deobligation if GSA is not
                         able to provide the supplies or services until after the time in which
                         those funds would have otherwise expired. However, the interagency
                         agreement must comply with the requirements discussed below.

            The requirements “discussed below” in the memorandum cover the bona fide
            need rule. However, the memorandum is not clear that the bona fide need rule
            applies to the appropriation that the DoD organization sent to reimburse the IT
            Fund. In other words, the same bona fide need requirements exist on the annual
            O&M funds used to reimburse the IT Fund as if DoD was using the O&M funds
            to make the purchase. Many DoD organizations mistakenly believed that use of
            the IT Fund did away with all fiscal year limitations on all funds used to purchase
            IT goods and services through GSA. DoD officials told auditors that the IT Fund
            exists to extend the time period that appropriations are available to use on the
            purchase of IT goods and services and that the IT Fund could be used until the
            appropriation reimbursing the IT Fund is closed4 instead of when the
            appropriation is expired.



4
    An appropriation is “expired” when it is no longer available for new obligations; however, most
    appropriations are available for another 5 years for adjustment to, or payment of, existing obligations. At
    the end of that 5-year period, the appropriation is considered “closed.” The bona fide need rule applies to
    when funds are obligated.

                                                       20
           False Advertising. Contractors, with GSA contracts, advertised on Web sites as
           recently as June 2005 that customers by using the IT Fund, could “park” their
           expiring funds, meaning that the funds could be used later after the funds were
           past the time period they were available for obligation. The acceptance of funds
           into the Information Technology Fund does not alleviate the restrictions put on
           those funds under applicable appropriations acts. The GSA March 24, 2005,
           memorandum outlines the rare instances where goods or services may be received
           in a year other than the year of appropriation. In November 2004, a contractor
           advertised on their Web site that:
                        Customers may utilize the GSA’s Information Technology Fund to
                        effectively “park” their expiring funds and to specifically obligate
                        those funds within the next five years for future purchases of supplies
                        or services.

           Another contractor advertised in June 2005 on its Web site to “park” funds:
                        Customers may utilize the GSA’s Information Technology Fund to
                        effectively “park” their expiring funds and to specifically obligate
                        those funds within the next five years for future purchases of supplies
                        or services. The Information Technology Fund was established by
                        Congress in 1996; it effectively removes the fiscal year limitation
                        funding constraints under normal appropriation law subject to certain
                        limitations including:

                            -the funds must be available for obligation

                            -the funds must be sent to GSA (into GSA’s Information
                             Technology Fund)

                            -the future use for these funds must be “Information Technology”
                             related

           Economy Act Orders. Because funding documents sent to the GSA Information
           Technology Fund are non-Economy Act orders5, many DoD organizations believe
           that financial management policies that apply to Economy Act orders are not
           applicable. Current regulations are unclear on policies for non-Economy Act
           orders. However, a draft version of DoD FMR, volume 11A, chapter 3,
           “Economy Act Orders and Other Interagency Orders,” March 2003, (although
           dated in 2003, this draft has not been signed and made effective as of April 2005)
           paragraph 030302.A. identifies the GSA IT Fund as a statutory authority other
           than the Economy Act for making interagency purchases. The draft DoD FMR
           paragraph 030303 states that the general policies that apply to Economy Act
           orders also apply to non-Economy Act orders.
                        Just as with Economy Act orders, non-Economy Act orders must be
                        clear, definite and certain. Funds must be appropriately obligated, and
                        any limitations on those funds identified. All orders must identify a
                        bona fide need arising, or existing, on the fiscal year or years for which
                        the appropriation is available for obligation.

5
    DoD organizations normally use Economy Act orders to fund interagency acquisitions.



                                                      21
    Draft DoD FMR paragraph 030203.B. states that Economy Act orders (and non-
    Economy Act orders in accordance with paragraph 030303) must be supported by
    Determinations and Findings stating that the use of interagency support
    capabilities is in the best interest of the Government and that the required goods,
    supplies or services cannot be obtained as conveniently or economically by
    contracting directly with a private source.

    Best Value Considerations. The GSA Compendium Audit identified that for
    64 percent of the GSA orders and modifications reviewed, required
    documentation supporting that the Government received fair and reasonable
    prices was absent or not sufficient. Based on this information, DoD program
    officials need to place more emphasis on assuring that prices negotiated by GSA
    for DoD purchases are fair and reasonable.


Conclusion
    In conclusion, DoD officials must perform preliminary acquisition planning, and
    the results of that planning must be reflected in interagency agreements that DoD
    and GSA enter into before the planned acquisition occurs. In addition, a DoD
    contracting officer should review the planned purchase to ensure that alternatives
    are considered prior to issuing a MIPR to non-DoD activities. The DoD
    contracting officer’s review should result in the development of a determination
    and finding that supports the use of a contracting source outside DoD for supplies
    and services. These actions will help ensure that DoD purchases through GSA
    and other non-DoD activities are made in the best interest of the U.S.
    Government, will prevent future Antideficiency Act violations and the loss of
    funds through improper use, and help ensure that DoD receives best value
    acquisitions without overpayment of other direct costs.

    DoD organizations appear to have committed numerous potential Antideficiency
    Act violations when using GSA FTS contracting services. DoD organizations
    routinely sent O&M Funds to GSA at the end of the fiscal year to obligate
    expiring funds. Of the 75 purchases we reviewed, 62 used O&M funds. On 29 of
    those purchases, DoD appears to have wrongly used the GSA IT Fund to extend
    the availability of the expiring O&M Funds. On 15 of those purchases, DoD
    appears to have used the expiring O&M funds instead of the appropriation legally
    required for the planned use of the procurement. Appendix C lists the
    38 purchases (some purchases both extended the availability of funds and used
    the wrong appropriation) reviewed that improperly used Government funds. In
    our opinion, these purchases are clearly outside what the framers of the
    Constitution envisioned. Article I, section 9, clause 7 states that “No Money shall
    be drawn from the Treasury but in Consequence of Appropriations made by law.”
    Extending the life of funds and use of funds for purposes not specified in
    appropriations are inconsistent with article I, section 9, clause 7 of the
    U.S. Constitution. The Office of the Undersecretary of Defense
    (Comptroller)/Chief Financial Officer should direct components to initiate
    preliminary reviews to determine whether Antideficiency Act violations occurred
    on those purchases. The Antideficiency Act prohibits Federal employees from


                                        22
    entering into contracts that exceed congressionally enacted appropriations for the
    year.

    As shown in Table 3 below, GSA has identified more than $1.7 billion of DoD
    funds that were sent to GSA to reimburse the IT Fund but are unobligated by
    GSA as of December 30, 2004. Those funds remain unobligated because either
    GSA contracts were negotiated for lesser amounts than DoD funded or no
    contract has yet been negotiated. The $1.7 billion does not include a review of
    contracts under $100,000 or give consideration to use of the wrong appropriation.
    Since past funding information received from GSA has been unreliable, we
    estimate that from $1 billion to $2 billion of unobligated DoD funds are now
    unavailable to DoD. The DoD Deputy Chief Financial Management Officer
    March 24, 2005, memorandum, directs DoD organizations
               . . . to immediately initiate needed actions to review these unobligated
               balances, coordinate with GSA to return unobligated balances to your
               respective offices, and coordinate with your servicing accounting office
               to ensure that appropriate adjustments to the accounting records are
               recorded before June 1, 2005.




               Table 3. Unobligated Funds by DoD Agencies
                   as of December 30, 2004 (in millions)

                                  2002 &
                                 Prior                2003         2004   Total
    Army                              $120.4          $86.5       $298.6   $505.5
    Navy                                78.3           90.1        192.7    361.1
    Air Force                           92.3          230.2        290.7    613.2
    Defense Agencies                    42.2           29.2        176.8    248.2
    Totals                            $333.2         $436.0       $958.8 $1,728.0

    Reviews of planned purchases by competent contracting authorities within DoD
    will also help prevent DoD paying the price for the acquisition problems reported
    by OIG GSA in the GSA Compendium Audit. DoD contracting authorities need
    to review such issues as improperly negotiated and billed Other Direct Charges on
    contracts. OIG GSA reported on millions of dollars of Other Direct Charges
    being awarded by GSA contracting officers without price reasonableness
    determinations.


Management Comments on the Finding and Audit Response
    Naval Education and Training Command Comments. The Naval Education
    and Training Command provided comments through the Office of the Under


                                            23
Secretary of Defense for Acquisition, Technology, and Logistics. The Naval
Education and Training Command did not agree that the Computer purchase, the
Chief Information Officer Integration purchase, and the Navy EXCEL purchase
should be reported as potential Antideficiency Act violations. The Naval
Education and Training Command did agree that the Learning Management
Support System purchase is a potential Antideficiency Act violation and is
replacing the FY 2004 O&M funds for this purchase with FY 2005 O&M funds.

Audit Response. The purchases in Appendix C. “Potential Antideficiency Act
Violations” have been referred to each Component by the Under Secretary of
Defense (Comptroller)/Chief Financial Officer to initiate preliminary reviews.
We will verify the status of those reviews in our FY 2005 followup report.

Naval Reserve Forces Comments. The Naval Reserve Force provided
comments through the Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics. The Naval Reserve Force disagreed that the Defense
Message Service purchase should be reported as a potential Antideficiency Act
violation.

Audit Response. The purchases in Appendix C. “Potential Antideficiency Act
Violations” have been referred to each Component by the Under Secretary of
Defense (Comptroller)/Chief Financial Officer to initiate preliminary reviews.
We will verify the status of those reviews in our FY 2005 followup report.

Space and Naval Warfare Systems Command Comments. The Space and
Naval Warfare Systems Command provided comments through the Office of the
Under Secretary of Defense for Acquisition, Technology, and Logistics. The
Space and Naval Warfare Systems Command stated that its Task Order
Administrator did not state that personnel liked to use the GSA Millennia contract
because they could select the contractor to perform specific tasks but that they
used the contract to centralize procurement of IT services and were paying a GSA
fee of only .8 percent. The Space and Naval Warfare Systems Command also
stated that they use MIPRs as stand-alone interagency requests and that all
required information is contained within the MIPRs. The Space and Naval
Warfare Systems Command commented that they perform required triannual
reviews on all GSA orders. The Space and Naval Warfare Systems Command did
not agree that the Toner Printer Supplies purchase, the Video Conference
Upgrades purchase, and the Work Force Learning Project purchase should be
reported as potential Antideficiency Act violations.

Audit Response. On October 27, 2004, while discussing how contractors are
selected off the Millennia contract, the Task Order Administrator stated that
Space and Naval Warfare Systems Command personnel liked to use the Millennia
contract because they could select which contractor to use for specific projects.
On May 5, 2005, the General Services Administration sent a memorandum to
Heads of Contracting Activities that was coordinated with our office. In that
memorandum, the General Services Administration specifies what will be
required for proper and valid interagency agreements in the future between the
General Services Administration and another Federal agency. The new
procedures should answer all questions the Space and Naval Warfare Systems
Command may have on what will be required for future interagency agreements

                                    24
with the General Services Administration. When discussing triannual reviews
with Space and Naval Warfare Systems Command personnel, we were told that
they could not trace payments of invoices back to specific MIPRs; therefore, we
determined that there was an inadequate audit trail at the Space and Naval
Warfare Systems Command. We did not state that the Space and Naval Warfare
Systems Command does not conduct triannual reviews. The purchases in
Appendix C have been referred to each Component by the Under Secretary of
Defense (Comptroller)/Chief Financial Officer to initiate preliminary reviews of
potential Antideficiency Act violations. We will verify the status of those
reviews in our FY 2005 followup report.

Air Combat Command Comments. The Air Combat Command also provided
comments through the Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics. The Air Combat Command stated that the
inappropriate use of the Information Technology Fund was a General Services
Administration responsibility. In addition, when the General Services
Administration contracted for DoD work although reviewing officials did not
have the necessary level of clearance to review significant portions of the
contract, the Air Combat Command submitted an unclassified Statement of Work
and Task Order to the General Services Administration. The Air Combat
Command stated that the classified work was monitored by a Quality Assurance
Evaluator who held the necessary clearance and was operating under a need to
know basis. In addition, the Air Combat Command stated that the Combat
Banners purchase was a National Guard Bureau issue as the task in question was
funded by the Air National Guard. The Air Combat Command did not agree that
the Counter Drug Trafficking purchase, the Combat Banners purchase, and the
Modernization of Weapons Systems purchase should be reported as potential
Antideficiency Act violations. The Air Combat Command did agree that the
Battle Management Project purchase was a potential Antideficiency Act violation
and is replacing the FY 2004 O&M funds for that purchase with FY 2005 O&M
funds.

Audit Response. The Air Combat Command comments appear to disregard a
DoD manager’s inherent responsibility to ensure public funds are spent
reasonably. To imply that it is only the responsibility of the General Services
Administration to ensure that Information Technology Funds are spent as
intended by Congress shirks the responsibilities of all Government financial
managers. We did not research the specific circumstances regarding the use of
the General Services Administration to contract for classified services, but
common sense would indicate that all reviewing officials of a contract and
especially the contracting officer must have necessary clearances to understand all
services being delivered to ensure that the Government receives a fair and
reasonable price. The purchases in Appendix C have been referred to each
Component by the Under Secretary of Defense (Comptroller)/Chief Financial
Officer to initiate preliminary reviews of potential Antideficiency Act violations.
We will verify the status and integrity of those reviews in our FY 2005 followup
report. We did remove the Counter Drug Trafficking purchase from the list of
potential Antideficiency Act violations as the contract for that purchase was
signed and the period of performance for the services began in FY 2004, the year
of the appropriation funding the services. We also listed the Combat Banners



                                    25
    purchase as a potential Antideficiency Act violation under the National Guard
    Bureau.

    Defense Manpower Data Center Comments. The Director of the Defense
    Manpower Data Center disagreed with our interpretation of applicable fiscal
    regulations and conclusions drawn based on those interpretations. The Director
    stated that the Defense Manpower Data Center interactions are not subject to the
    Economy Act and therefore an overarching interagency agreement fulfills DoD
    requirements for interagency agreements. The Director nonconcurred that the
    Defense Manpower Data Center potentially committed any Antideficiency Act

    violations including the Universally Accepted Credentials purchase, the
    Beneficiary Services and Ancillary Support purchase, the Defense Biometric
    Identification System purchase, and the Common Access Card Vulnerability
    purchase. The Director stated that since the law, regulations, and guidance are
    unclear, and therefore subject to different reasonable legal interpretations, he
    requests that the subject report not be published until a formal written opinion can
    be obtained from the DoD General Counsel.

    Audit Response. On May 5, 2005, the General Services Administration sent a
    memorandum to Heads of Contracting Activities that was coordinated with our
    office. In that memorandum, the General Services Administration specifies what
    will be required for proper and valid interagency agreements in the future
    between the General Services Administration and another Federal agency. The
    new procedures should answer all questions the Director may have on what will
    be required for future interagency agreements with the General Services
    Administration. The purchases in Appendix C have been referred to each
    Component by the Under Secretary of Defense (Comptroller)/Chief Financial
    Officer to initiate preliminary reviews of potential Antideficiency Act violations.
    We will verify the status of those reviews in our FY 2005 followup report.
    Hopefully, this report with forthcoming guidance from the Under Secretary of
    Defense (Comptroller)/Chief Financial Officer and the results of the potential
    Antideficiency Act violation investigations will provide the Director the clarity he
    seeks on fiscal regulations.


Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics:

          a. Establish requirements that a qualified contracting officer
    evaluate assisted acquisitions for amounts greater than the simplified
    acquisition threshold when requiring DoD organizations plan to use non-
    DoD contracts. The contracting officer shall determine whether the use of
    interagency support capabilities is in the best interest of the Government and
    should verify whether the required goods, supplies, or services cannot be
    obtained as conveniently or economically by contracting directly with a
    commercial enterprise. The contracting officer or another official designated
                                         26
by the agency head should also sign a determination and finding in
accordance with the March 2003 draft version of DoD Financial
Management Regulation, volume 11A, chapter 3, paragraph 030203.B.

Management Comments. The Director of Defense Procurement and Acquisition
Policy, responding for the Under Secretary of Defense for Acquisition,
Technology, and Logistics nonconcurred. The Director stated that the DoD
policy entitled “Proper Use of Non-DoD Contracts” issued on October 29, 2004,
established procedures for DoD organizations when using a non-DoD contract to
meet mission needs. The Director stated that its policy allows each Service and
Defense agency to evaluate and determine that using a non-DoD contract is in the
best interest of the DoD. The Director stated that this policy has not been in
effect long enough to determine whether a change is warranted. Regarding the
recommendation to prepare a determination and finding to document this
evaluation, the Director felt this was unnecessary.

Audit Response. In accordance with the October 29, 2004, policy memorandum,
Military Departments and Defense agencies must establish procedures for
reviewing and approving the use of non-DoD contract vehicles when procuring
supplies and services on or after January 1, 2005, for amounts greater than the
simplified acquisition threshold. This policy memorandum currently does not
require written documentation. Although the Director of Defense Procurement
and Acquisition Policy recently developed policy that allows each of the Services
and Defense agencies to determine who evaluates the various purchase options for
interagency support, we still believe a contracting office has a more global
understanding of the different purchase options and the market place and knows
contractor performance histories and pricing methods. We also believe the
contracting officer’s documentation of this evaluation and assessment should be
documented in writing. Accordingly, we request the Director of the Defense
Procurement and Acquisition Policy to reconsider the recommendation and
provide comments on the final report.

      b. Establish a requirement that assisted acquisitions be conducted
using interagency agreements that specify agreed upon roles and
responsibilities regarding contract administration and surveillance duties.

Management Comments. The Director of Defense Procurement and Acquisition
Policy concurred and stated that her office is developing an umbrella
Memorandum of Agreement with other Government Agencies including the
Departments of Interior and Treasury and the General Services Administration.
The Memorandum of Agreement will assist agencies with the roles and
responsibilities of each organization, especially with regard to contract
administration and contract surveillance. The estimated completion date is
September 30, 2005.

       c. Establish a requirement that DoD organizations negotiate the cost
of assisted acquisitions and that the negotiations consider the cost of contract
surveillance duties.

Management Comments. The Director of Defense Procurement and Acquisition
Policy partially concurred and a requirement of existing policy (October 29,


                                   27
2004) is that procedures must be in place to ensure “cost effectiveness.” In any
event, the Director stated that her office will supplement the October 29, 2004,
policy memorandum to specifically require that on assisted acquisitions, DoD
activities must evaluate the fees proposed by the assisting agencies to ensure that
the fees are reasonable and approximate the actual costs of support provided. The
estimated completion date is September 30, 2005.

       d. Establish a policy that DoD contracts for services involving
classified information be procured only through DoD contracting
organizations.

Management Comments. The Director of Defense Procurement and Acquisition
Policy nonconcurred with establishing a policy requiring all classified work to be
process through DoD contracting organizations. The Director cited the need to
work with the Department of Energy and the Central Intelligence Agency.
However, the Director stated that her office will issue a policy memorandum
stating that any order or contract for services, where classified information is
accessed or generated, requires all contracting and contract oversight
responsibility necessitating access to classified information be assigned only to
individuals who have the clearance appropriate for the responsibilities assigned.
The estimated completion date for the action is September 30, 2005.

Audit Response. We recognize that DoD needs to work with such agencies as
the Department of Energy and the Central Intelligence Agency. Our
recommendation is addressing organizations that typically do not work with
classified programs, such as GSA. Accordingly, the comments provided meet the
intent of our recommendation. No further comments are necessary.

2. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer:

      a. Revise the DoD Financial Management Regulations, volume 11A,
chapter 3 to clarify requirements for the use of Economy Act Orders and
Other Interagency Orders and to include the requirement for a
Determination and Finding on all non-DoD purchases.

Management Comments. The Deputy Chief Financial Officer, responding for
the Under Secretary of Defense (Comptroller)/Chief Financial Officer, partially
concurred. The Deputy Chief Financial Officer stated that her office will revise
the DoD Financial Management Regulations to clarify the requirements for use of
the Economy Act and Other Interagency Orders, but will defer to the Under
Secretary of Defense for Acquisition, Technology, and Logistics regarding the
requirement for a Determination and Finding on all non-DoD purchases. The
estimated completion date is September 30, 2005.

Audit Response. The Deputy Chief Financial Officer’s comments are
responsive. No further comments are necessary.

However, we have requested that the Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics reconsider his position on the requirement
for a contracting officer’s Determination and Finding for non-DoD purchases.

                                    28
       b. Work with the General Services Administration to develop a
system to track funds sent to the General Services Administration and other
Government activities by Military Interdepartmental Purchase Requests.
The system developed must be able to identify fund balances, amounts
obligated, amounts expended, and amounts expired by appropriation and
year of appropriation.

Management Comments. The Deputy Chief Financial Officer concurred and
stated that DoD is participating in a government-wide effort to address
intergovernmental transactions, an area that the Government Accountability
Office has classified as a government-wide material weakness.

      c. Develop a standard for military interdepartmental purchase
request numbers throughout DoD to enable identification of the activity
sending the funds and of the non-DoD activities receiving the funds.

Management Comments. The Deputy Chief Financial Officer concurred and
stated that on October 4, 2004, the Office of Management and Budget issued
Memorandum M-03-01, which provides business rules for Federal agencies that
acquire goods or services from another Federal agency. These business rules
include the establishment of unique business location identifiers to identify the
buyer and seller. In addition, DoD will hold a requirements review in June 2005
that will review standardization of information requirements for
intragovernmental order forms including Military Interdepartmental Purchase
Requests. The estimated completion date is December, 2005.

       d. Publish clear guidance to all DoD organizations on the funding of
non-DoD contracts and the necessity to monitor funds from Military
Interdepartmental Purchase Request Acceptances; final payment of invoices
received; and return of excess, expired, or unneeded funds.

Management Comments. The Deputy Chief Financial Officer concurred and
stated that the guidance will be published in DoD Financial Management
Regulations. The estimated completion date is September 30, 2005.

       e. Establish requirements that the Defense Finance and Accounting
Service provide financial offices and program offices, all payments made to
non-DoD Agencies by funding document number, appropriation type, and
year of appropriation no less than 3 times annually so that amounts can be
reconciled during triannual financial reviews. Verify that such
reconciliations are being made.

Management Comments. The Deputy Chief Financial Officer concurred but
stated that until an intra-governmental solution is fielded, the Defense Finance
and Accounting Service will continue to provide fund holders with information
regarding outstanding commitments and unliquidated obligations recorded for the
funds holder in accordance with the DoD Financial Management Regulations,
volume 3, chapter 8. However, the Deputy Chief Financial Officer also stated
that her office is revising DoD Financial Management Regulations, volume 3,
chapter 8, to require the Military Department Assistant Secretaries (Financial
Management and Comptroller) and the Deputy Comptroller (Program/Budget) to


                                    29
submit a confirmation statement that triannual financial reviews were conducted
to her office. The confirmation statement will confirm that the required
commitment and obligation reviews have been conducted; confirm that all known
obligations have been recorded; and identify the internal controls used to ensure
the detail reviews were conducted. The estimated completion date is October 31,
2005.

       f. Direct the DoD Components to initiate preliminary reviews to
determine whether the improper use of Government funds for the
38 purchases listed in Appendix C resulted in Antideficiency Act Violations
or other funding violations in accordance with DoD 7000.14-R, “Financial
Management Regulations.”

Management Comments. The Deputy Chief Financial Officer partially
concurred stating that the Under Secretary of Defense (Comptroller) does not
initiate preliminary reviews of potential Antideficiency Act violations. However,
on May 31, 2005, the Deputy Chief Financial Office directed the respective
Components to initiate preliminary reviews of the circumstances surrounding the
cited potential Antideficiency Act violations within 30 days.

Audit Response. The Deputy Chief Financial Officer comments were
responsive. No further comments are necessary. The Office of the Inspector
General of the Department of Defense will review the status of the 38 reported
potential Antideficiency Act violations during the followup audit of DoD
purchases made through the General Services Administration.




                                   30
Appendix A. Scope and Methodology
   This audit was a joint review between the DoD OIG and GSA OIG. We
   performed the audit in accordance with the Ronald W. Reagan National Defense
   Authorization Act for Fiscal Year 2005. The Act requires the Inspectors General
   of DoD and GSA to review the policies, procedures, and internal controls for
   purchases through GSA Client Support Centers. As a result, we reviewed
   75 purchases funded by 144 MIPRs valued at $406 million. We reviewed
   purchases made between October 2002 and October 2004 and shared the
   information with GSA OIG. However, we emphasized purchases made in the
   fourth quarter of FY 2004.

   GSA used the OMIS and the CODB databases to provide a list of DoD activities
   and MIPRs for the fourth quarter of FY 2003 and FY 2004. We selected
   16 organizations from the list that had high-value MIPRs. The Army
   organizations visited were the U.S. Army Materiel Command; U.S. Army
   Accession Command; U.S. Army Reserve Command; National Guard Bureau,
   including the Army National Guard and Air National Guard; and Project Manager
   Defense Communications, and Army Transmission Systems. The Navy
   organizations visited were the Naval Education and Training Command, Naval
   Reserve Forces, Space and Naval Warfare Systems Command, and the Space and
   the Naval Warfare Systems Center, New Orleans. The Air Force organizations
   visited were the Air Combat Command, Electronic Systems Center, and the Air
   Force Medical Support Agency. The other Defense organizations were the
   Southern Command, Defense Manpower Data Center, and the Defense Logistics
   Agency.

   For each site, we judgmentally selected a minimum of four high value MIPRS
   from fourth quarter FY 2004. We reviewed documentation maintained by the
   contracting organizations to support purchases made through GSA. The purchase
   documents reviewed were MIPRs and acceptances, statements of work,
   acquisition plans, task orders, cost proposals, surveillance plans, bill of materials,
   invoices, sole source letters, contract award documents, disbursement reports,
   payment history documents, and miscellaneous correspondence. We interviewed
   contract specialists, finance officials, acquisition technology and logistics
   personnel, comptroller personnel, and program managers covering purchase
   requirements, bona fide need, appropriation and related management control
   programs. Our audit included four major areas of review:

   •   The first step determined whether DoD organizations had internal control to
       ensure that the proper types of funds and proper year of funds were used for
       DoD MIPRs sent to GSA. We determined whether the contracting section of
       the organization had written procedures covering the use of MIPRs to non-
       DoD organizations. For each purchase reviewed, we determined whether the
       appropriation code was correct, and whether the appropriation code would be
       appropriate if the purchase had not been made through GSA.

   •   The second step determined whether DoD requiring organizations had internal
       control for defining requirements and planning acquisitions for purchases
       awarded on GSA contracts. For each purchase reviewed, we determined


                                         31
    when the organization developed the requirement and why GSA was selected
    to make the purchase. In addition, we determined whether there was a bona
    fide need for the requirement and whether it was for the fiscal year that
    financed the requirement.

•   The third step determined whether DoD contracting activities are following
    established procedures for approving purchases made through the use of
    contracts awarded by GSA. Specifically, we determined whether a DoD
    contracting office was involved in planning the GSA purchase.

•   The fourth step determined how contractor performance was being monitored
    in situations where DoD purchases were awarded on GSA contracts. For each
    purchase reviewed, we determined whether a DoD representative signed off
    on acceptance of contractor work.

We performed this audit from September 2004 through April 2005 in accordance
with generally accepted government auditing standards.

Use of Computer-Processed Data. We obtained a computer-generated list from
GSA processed through the OMIS and COBD databases in FY 2003 through
FY 2004. From the list, we judgmentally selected high-value MIPRs for review.
However, due to inconsistencies in the OMIS and CODB data, we were unable to
rely on the GSA list for MIPR selection. The GSA list detailed MIPRs that some
contracting organizations could not identify. Therefore, we selected MIPRs based
on records at the contracting organizations. Although we did not perform a
formal reliability assessment of the computer-processed data, we verified the list
against official records at the activities visited and determined the lists to be
unreliable in reporting all DoD funding documents received by GSA.

General Accounting Office High-Risk Area. The General Accounting Office
has identified several high-risk areas in DoD. This report provides coverage of
the high-risk area “Management of Interagency Contracting.”




                                    32
Appendix B. Prior Coverage
    During the last 5 years, the General Accounting Office (GAO), the Inspector
    General of the Department of Defense (DoD IG), Army, Air Force, and General
    Services Administration (GSA) have issued 21 reports discussing Military
    Interdepartmental Purchase Requests (MIPRs) and Federal Technology Service’s
    Client Support Centers. Unrestricted GAO reports can be accessed over the
    Internet at http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
    http://www.dodig.osd.mil/audit/reports. Unrestricted Army reports can be
    accessed at http://www.hqda.army.mil. Unrestricted Air Force reports can be
    accessed at http://www.afaa.hq.af.mil. Unrestricted GSA reports can be accessed
    at http:// www.gsa.gov.


GAO
    GAO Report No. GAO-05-274, “Contract Management: Opportunities to
    Improve Surveillance on Department of Defense Service Contracts,” March 2005

    GAO Report No. GAO-05-207, “High-Risk Series: An Update,” January 2005


DoD IG
    DoD IG Report No. D-2003-090, “Use and Control of Military Interdepartmental
    Purchase Requests at the Air Force Pentagon Communications Agency,” May 13,
    2003

    DoD IG Report No. D-2002-110, “Policies and Procedures for Military
    Interdepartmental Purchase Requests at Washington Headquarters Services,”
    June 19, 2002

    DoD IG Report No. D-2002-109, “Army Claims Service Military
    Interdepartmental Purchase Requests,” June 19, 2002


Army
    Army Report No. A-2004-0244-FFB, “Information Technology Agency Contract
    Management,” May 25, 2004

    Army Report No. A-2002-0536-IMU, “Military Interdepartmental Purchase
    Requests, Logistics Assistance Group Europe,” August 21, 2002




                                       33
Air Force
    Air Force Report No. F2005-0006-FBP000, “General Services Administration
    Military Interdepartmental Purchase Request, 353d Special Operations Group,
    Kadena AB, Japan,” November 10, 2004

    Air Force Report No. F2004-0046-FBP000, “General Services Administration
    Military Interdepartmental Purchase Request, 390h Intelligence Squadron,
    Kadena AB, Japan,” August 11, 2004

    Air Force Report No. 99062007, “Use and Control of Military Interdepartmental
    Purchase Requests,” December 11, 2000

    Air Force Report, “Military Interdepartmental Requests, Air Force Flight Test
    Center, Edwards Air Force Base, California,” November 30, 2000

    Air Force Report No. DT000026, “Use and Control of Military Interdepartmental
    Purchase Requests Oklahoma City Air Logistics Center Tinker Air Force Base,
    Oklahoma,” August 3, 2000

    Air Force Report No. D1000027, “Use and Control of Military Interdepartmental
    Purchase Requests at the Air Logistics Centers,” May 2, 2000


GSA IG
    GSA Report, Compendium of Audits of Federal Technology Service Client
    Support Center Controls, June 14, 2005

    GSA Report, Compendium of Audits of the Federal Technology Service Regional
    Client Support Centers, December 14, 2004
    GSA Report No. A040097/T/7/Z05011, “Audit of Federal Technology Service’s
    Client Support Center,” Greater SOUTHWEST Region, December 10, 2004

    GSA Report No. A030205/T/9/Z05009, “Audit of Federal Technology Service’s
    Client Support Center,” Pacific Rim Region, December 9, 2004

    GSA Report No. A040191/T/6/Z05007, “Audit of Federal Technology Service’s
    Control and Testing of Those Controls,” Heartland Region, December 9, 2004

    GSA Report No. A040102/T/W/Z05004, “Audit of Federal Technology Service’s
    Client Support Center,” National Capital Region, December 9, 2004

    GSA Report No. A020144/T/5/Z04002, “Audit of Federal Technology Service’s
    Client Support Centers,” January 8, 2004

    GSA Report No. A020144/T/5/W03001, “Alert Report on Audit of Federal
    Technology Service’s Client Support Centers,” March 6, 2003

                                       34
Appendix C. Potential Antideficiency Act
            Violations
    The draft version of this report listed 40 potential Antideficiency Act violations.
    However, we have deleted draft version number 2. “Enterprise Business
    Intelligence Capability” from the list of potential Army Material Command
    violations and draft version number 26. “Counter Drug Trafficking Purchase,”
    from the list of potential Air Combat Command violations. In response to the Air
    Combat Command comments, we moved draft version number 28. “Combat
    Banners,” from the Air Combat Command list to the National Guard Bureau list
    as final report version number 16.

Army Materiel Command
    1. Relocation/IT Support. The Army Materiel Command sent
       MIPR MIPR3M6ADPP02 for approximately $1.9 million and
       MIPR MIPR3M6ADPP02 Amendment 1 for $500,000 to GSA on
       September 30, 2003, for relocation of IT support using O&M Funds. The
       relocation support included seat management equipment and services.
       Although a contract existed, GSA had not amended the contract to reflect the
       MIPR requirements as of November 2004. Use of FY 2003 O&M funds to
       satisfy FY 2005 requirements does not meet the intent of the bona fide need
       rule.

    2. Relocation/Cell Phones. The Army Materiel Command sent
       MIPR MIPR4MG6ISW040 for $420,000 to GSA on September 28, 2004,
       using O&M Funds. The requirement was for cellular phones, pagers and
       blackberries. As of November 2004, GSA had not placed the funds on
       contract to purchase the equipment. The anticipated receipt of goods after the
       DoD appropriation expired could not be justified because of delivery time,
       production lead-time, or unforeseen delays. No bona fide need exists because
       the equipment will not be provided until FY 2005 and the Army Materiel
       Command used FY 2004 O&M Funds, which expired on September 30, 2004.

    3. Management Consulting Services. The Army Materiel Command sent
       MIPR MIPR4LG1SERV21 for $324,000 to GSA on August 11, 2004, using
       FY 2004 O&M funds. GSA accepted the funds on the same day. The
       requirement funded the Army Materiel Command management consulting
       project. GSA obligated the funds against contract number GS-10F-0439P,
       task order 5TPS210R00030F on January 27, 2005 with a period of
       performance of February 1, 2005 to January 31, 2006. The procurement was
       for severable services. No FY 2004 bona fide need existed because the order
       for supplies and services met a FY 2005 requirement that lasted until
       FY 2006.




                                        35
Army Accession Command
    4. Communications and Electronics Helpdesk. The Army Accession
       Command sent MIPR MIPR04A04000021 amendment 7 for $24,995 of
       FY 2004 O&M funds to GSA on September 30, 2004, to exercise option
       year 3 of a task order providing Information Technology Communications and
       Electronic Help Desk support services from October 1, 2004 through
       September 30, 2005. Exercise of an option year is clearly a procurement of
       severable services that are not a FY 2004 requirement. GSA modified the
       contract with an effective date of October 20, 2005. FY 2004 O&M Funds
       expired on September 30, 2004, and the period of service was for FY 2005.
       The procurement was for a continuation of severable services that will be
       received in FY 2005. Therefore, no FY 2004 bona fide need existed for this
       procurement.

    5. Cell Phone and Telecommunications Project. The Army Accession
       Command sent MIPR MIPR4K04000137 amendment 1 for $60,000 to GSA
       on September 23, 2004, using FY 2004 O&M Funds. It also sent
       MIPR MIPR4K04000147 amendments 1 and 5 for approximately $5.4 million
       and $1,400 to GSA on September 23 and September 30, respectively, using
       FY 2004 O&M funds. The Army Accession Command procured cell phones
       for all Army Recruiters and selected Headquarters staff to maintain contact
       with the recruiter’ applicants and staff. The task order indicates the period of
       performance was for option year 4 of the contract starting October 1, 2004
       through September 30, 2005. Exercise of am option year is clearly a
       procurement of severable services that are not a FY 2004 requirement. The
       receipt of goods after the DoD appropriation expired could not be justified
       because of delivery time, production lead-time, or unforeseen delays. In
       addition, the services were severable and met a FY 2005 requirement.
       Therefore, no bona fide need existed in FY 2004.

    6. Partners for Youth Success Program- Marketing. The Army Accession
       Command sent MIPR MIPR4G04000102 amendment 2 for $214,127 to GSA
       on September 14, 2004, using FY 2004 O&M Funds. The Army Accession
       Command required Marketing for the Army’s Recruiting Program. The Army
       Accession Command used FY 2004 O&M funds, which expired on
       September 30, 2004. The period of performance occurred from January 1,
       2005 through April 30, 2005. Therefore, no FY 2004 bona fide need existed
       for services that were clearly a FY 2005 requirement.

    7. Partners for Youth Success Information Technology. The Army
       Accession Command sent MIPR MIPR4G04000104 amendment 2 for
       approximately $167,000 to GSA on September 14, 2004, using O&M funds.
       FY 2004 O&M funds expire on September 30, 2004. The Army Accession
       Command procured IT support to develop and maintain a web-based
       marketing tool for recruiting. The MIPR period of performance for service is
       January 1, 2005 through April 30, 2005. Therefore, no FY 2004 bona fide
       need existed for services that were clearly a FY 2005 requirement.



                                        36
    8. Joint Recruiting Management System. The Army Accession Command
       sent MIPR MIPR4A04000026 amendment 6 for $300,000 to GSA on
       September 24, 2004, using FY 2004 O&M funds. The Army Accession
       Command exercised option year 3 of a task order to continue services in
       support of the development of a database to maintain the information/leads on
       potential applicants for military service. Exercise of an option year is clearly
       a procurement of severable services that are not a requirement of FY 2004.
        The period of performance for services occurred from October 1, 2004,
       through September 30, 2005. The procurement for services was severable and
       met a FY 2005 requirement. Therefore, no bona fide need existed for FY
       2004.

Army Reserve Command
    9. Individual Training Requirements System. The Army Reserve Command
       sent MIPR MIPR04ITRS3092 for $1,700,244 to GSA on July 27, 2004, using
       O&M funds, which expire on September 30, 2004. The Army Reserve
       Command exercised option year 3 to continue support services for the
       Individual Training Requirements System project. There was no bona fide
       need in FY 2004 because option year 2 covered that fiscal year. Therefore,
       the bona fide need did not rise until FY 2005. Exercise of an option year is
       clearly a procurement of severable services that were not a FY 2004
       requirement. GSA obligated the funds against contract number GS-35F-
       4797H, task order 4TEG21023601. The MIPR identified FY 2005 as the
       period funded. No FY 2004 bona fide need existed because the MIPR funded
       a FY 2005 requirement.

    10. Steam Cleaners. The Army Reserve Command sent
        MIPR MIPR04STEAM169, for approximately $49,000 to GSA on
        September 24, 2004, using O&M Funds, to purchase a heavy equipment
        steam cleaner mounted on a flat bed trailer. The acquiring official stated that
        he ordered the equipment through GSA rather than lose the funding. As of
        February 22, 2005, the steam cleaners had not been received but Army
        Reserve Command officials believed the steam cleaners were on contract.
        The receipt of goods after the DoD appropriation expired could not be
        justified because of delivery time, production lead-time, or unforeseen delays.
        Therefore, no bona fide need existed for this requirement.

    11. Army Wide Training Tracking System/Army Training and Information
        Management System Development. The Army Reserve Command sent
        MIPR MIPR04WWODT120 for approximately $662,000 to GSA on
        September 24, 2004, using FY 2004 O&M Funds, to support and maintain an
        internet based management and tracking system to accommodate all Army
        units and soldiers conducting training events. GSA accepted the funds on
        September 25, 2004 but had not awarded a contract as of November 23, 2004.
        The procurement was for severable services described in a statement of work
        dated November 2, 2004. Therefore, no bona fide need existed for this
        procurement in FY 2004.




                                        37
National Guard Bureau
    12. Sensor Evaluation. The National Guard Bureau sent
        MIPR NMIPR04860345 to GSA for $208,333 on September 23, 2004, using
        FY 2004 O&M funds. GSA accepted the funds on September 27, 2004. GSA
        awarded Order number GST0405DE0025, Contract GS04T02BFD003 on
        November 17, 2004. The National Guard Bureau required sensors and a
        procurement plan for equipping the C-130 RORO pallet with operational
        sensors in support of the Counter drug Technology Consortium Project. The
        statement of work identified the project as developmental. The statement of
        work also identified developmental type tasks, that is, systems design,
        prototypes and the work is performed at a Research Institute. RDT&E Funds
        are used to develop major system upgrades, to purchase test articles, and to
        conduct developmental testing and initial operational testing and evaluation
        prior to system acceptance and subsequent production. Based on this
        information, RDT&E funds should have been used instead of O&M funds.
        Therefore, the National Guard Bureau used an incorrect appropriation. In
        addition, GSA awarded the task order on November 17, 2004, in FY 2005.
        The period of performance for the requirement is for 18 months, from
        November 17, 2004, through May 16, 2006. GSA awarded the contract action
        in FY 2005 and the period of performance was in FY 2005 and FY 2006.
        FY 2004 O&M funds cannot be used to fund severable services on this
        contract action for more than 12 months. In addition, the receipt of goods
        after the DoD appropriation expired could not be justified because of delivery
        time, production lead-time, or unforeseen delays. Therefore, there was no
        bona fide need for this purchase in the fiscal year of the appropriation used
        and a potential Antideficiency Act violation has occurred.

    13. Web Site Development. The National Guard Bureau sent
        MIPR NMIPR04860338 for $200,000 to GSA on September 17, 2004, using
        FY 2004 O&M funds. GSA accepted the funds on September 28, 2004. GSA
        awarded the contract November 22, 2004. The National Guard Bureau
        required support for development of the Counterdrug internal web sites. The
        statement of work identifies the work as developmental. It states that “the
        intent of NGB-CD [National Guard Bureau–Counterdrug] that this “NGB-CD
        Internal Web Management System Development” work follow a spiral
        developmental model.” The statement of work also identifies developmental
        type tasks, that is, systems design, prototypes. The work is performed at a
        Research Institute. RDT&E Funds are used to develop major system
        upgrades, to purchase test articles, and to conduct developmental testing and
        initial operational testing and evaluation prior to system acceptance and
        subsequent production. Based on this information, RDT&E funds should
        have been used instead of O&M funds. Therefore, the National Guard Bureau
        used an incorrect appropriation. In addition, GSA awarded the contract
        November 22, 2004, in FY 2005. The period of performance for this GSA
        contract action is from November 22, 2004, through May 21, 2006. FY 2004
        O&M funds cannot be used to fund severable services on this contract more
        than 12 months. Therefore, a potential Antideficiency Act violation has
        occurred.


                                        38
14. Weapons of Mass Destruction First Response Equipment Buy. The
    National Guard Bureau sent MIPR NMIPR04860337 for $7 million to GSA
    on September 16, 2004, using FY 2004 O&M funds. GSA had not awarded a
    contract as of January 31, 2005. Accordingly, the bona need rule was not met.
    The National Guard Bureau required program management, training
    information systems delivery, equipment logistics support, and procurement
    support for the Weapons of Mass Destruction 1st Response Equipment Buy.
    This purchase consists of support services and equipment. The acquisition
    and deployment of a system, the aggregate cost of all components such as
    equipment, integration, engineering support, and software, with a cost of
    $250,000 or more is an investment and should be funded with Other
    Procurement Funds. Based on the statement of work task description, the
    National Guard Bureau should have used Other Procurements Funds instead
    of O&M funds. Therefore, the National Guard Bureau also used an incorrect
    appropriation. Since no contract was awarded, the National Guard Bureau
    should deobligate the funds currently at GSA for this purchase and start over
    with the correct appropriation. Once those actions are complete, there will not
    be a potential Antideficiency Act violation in connection with this purchase.

15. Active Directory Support. The National Guard Bureau sent Miscellaneous
    Obligation/ Reimbursement Document OGMORD0486046 for $10.1 million
    to GSA on August 20, 2004, using O&M funds. The National Guard Bureau
    required strategic planning, requirements analysis, systems integration,
    facilities management, office automation and networks; software
    management, data management, information systems engineering, training
    maintenance, and tools in support of the Active Director Support Project. The
    acquisition and deployment of a complete system, the aggregate cost of all
    components such as equipment, integration, engineering support, and
    software, with a cost of $250,000 or more is an investment and should be
    funded with Other Procurement Funds. Based on the above description of the
    task, Other Procurement Funds should have been used instead of O&M funds.
    Therefore, the National Guard Bureau used an incorrect appropriation.

16. Combat Banners. The Project Office for Combat Banners is at the
    Air Combat Command. The Air National Guard sent MIPR NMIPR04860278
    for $327,000 to GSA on August 19, 2004, using FY 2004 O&M Funds. The
    Air National Guard requirement included a wide variety of airborne
    simulation capabilities utilizing Lear 35/36 Type (or similar) aircraft towing
    the TDU-32A/B providing target presentations to train Air Force Fighter
    pilots and weapon systems operators on the employment of the M61 20mm
    gun. GSA obligated funds against contract number GS03T02DSD0011, task
    order GST0304DS2026 on September 13, 2004 for supplies to be delivered in
    December 2005, and task order GST0305DS2237 on February 1, 2005 for
    missions to be accomplished in February and June 2005. The receipt of
    supplies after the DoD appropriation expired could not be justified because of
    delivery time, production lead-time, or unforeseen delays. The procurement
    for services is severable and meets FY 2005 requirements. Therefore, a bona
    fide need does not exist for FY 2004.




                                    39
Army PM/DCATS
    17. AMC Headquarters Relocation Project. The PM/DCATS sent 18 MIPRs
        for approximately $44 million to GSA, using FY 2002, FY 2003, and
        FY 2004 O&M Funds, for the relocation of the Army Material Command
        Headquarters. GSA contractors built 2 modular buildings that did not
        previously exist, to lease to PM/DCATS. Military Construction includes the
        work to produce a complete and usable facility. PM/DCATS should have
        requested Military Construction Funds from Congress for the project.
        Therefore, PM/DCATS used the incorrect appropriation.

Naval Education and Training Command
    18. Computer Purchase. The Naval Education and Training Command sent
        MIPR N6804504MPAC202 for $8 million to GSA on August 24, 2004, using
        O&M Funds, which expire on September 30, 2004. The Naval Education and
        Training Command requested GSA procure 5,000 computers. GSA obligated
        the funds against contract number GS-35F-0215J, task order 4TNG17042010
        on September 7, 2004. Because the Naval Education and Training Command
        is upgrading its computers, and the cost is above the threshold of $250,000 for
        use of O&M Funds, Other Procurement Funds should have been used. Other
        Procurement Funds are used for upgrades, including new hardware, with a
        cost of $250,000 or more. Therefore, the Naval Education and Training
        Command used the incorrect appropriation.

    19. Learning Management System Support. The Naval Education and
        Training Command sent MIPR N6804504MPEL265 for approximately
        $3.5 million to GSA on September 28, 2004, using FY 2004 O&M Funds.
        The Naval Education and Training Command used GSA to procure the
        Learning Management System Support Integrated Learning Environment.
        The purpose is to provide those products and services necessary to provide
        functionality in support of the Navy's Integrated Learning Environment. The
        period of performance is from October 2004 through September 2005,
        fulfilling a FY 2005 requirement. FY 2005 funds should have been used. The
        receipt of goods after the DoD appropriation expired could not be justified
        because of delivery time, production lead-time, or unforeseen delays.
        Therefore, there was no bona fide need in FY 2004 for this procurement.

    20. Chief Information Officer Integration. The Naval Education and Training
        Command sent MIPR N6804504MPFQ446 for approximately $546,000 to
        GSA on September 30, 2004, using FY 2004 O&M Funds. The Naval
        Education and Training Command purchased support study services for the
        Navy Marine Corps Intranet project. As of December 16, 2004, GSA had not
        awarded a contract for this requirement. Accordingly, the bona fide need rule
        was not met.

    21. Navy EXCEL. The Naval Education and Training Command sent
        MIPR N6804504MPX5104 for approximately $2.5 million to GSA on
        July 21, 2004; MIPR N6804504MPX5104 amendment 1 for approximately

                                        40
       $5.7 million to GSA on September 13, 2004; and MIPR N6804504MPX5104
       amendment 2 for $2.4 million to GSA on September 25, 2004, using
       O&M Funds. The Naval Education and Training Command used GSA to
       procure the Navy Knowledge Online Task Force EXCEL (Excellence through
       Commitment to Education and Learning) to transform training to incorporate
       changes in technologies, systems, and platforms being developed for
       tomorrow’s Fleet. GSA obligated the funds against contract number
       GS-35F-4381G on June 9, 2004, and modified the order on July 28, 2004. It
       appears that GSA awarded the task and work started prior to GSA receiving
       funds from DoD. The deliverables in the statement of work include items
       such as "software test plan" and Government Acceptance Testing. Also, the
       initial capabilities task occurs at the very end of the project. RDT&E Funds
       are used to develop major system upgrades, to purchase test articles, and to
       conduct developmental testing and initial operational testing and evaluation
       prior to system acceptance and subsequent production. Therefore, the Naval
       Education and Training Command used the incorrect appropriation.

Naval Reserve Forces
    22. Defense Message System. The Naval Reserve Forces sent
        MIPR N000720MP34275, for approximately $706,000 to GSA on
        September 13, 2004 and MIPR N000720MP34275 amendment 1, for
        $566,500 to GSA on September 29, 2004, using O&M Funds that expired on
        September 30, 2004. The Naval Reserve Forces upgraded the Defense
        Message System servers and messaging. GSA obligated the funds against
        contract number GS-35F-4076D, task order BJB174733T2 for computers on
        September 27, 2004, and contract number GS-35F-4390G, task order
        FJB174739T2 for training on November 1, 2004. The modification of a
        system with a cost of $250,000 or more is an investment and should be funded
        with Other Procurement Funds. Therefore, the Naval Reserve Forces used the
        incorrect appropriation.

Space and Naval Warfare Systems Command
    23. Toner Printer Supplies. The Space and Naval Warfare Systems Command
        sent MIPR N0003904IPFG003 for approximately $212,000 to GSA on
        September 22, 2004, for toner supplies, using FY 2004 O&M Funds. The
        Space and Naval Warfare Systems Command purchased toner for FY 2005,
        using FY 2004 funds. The receipt of goods after the DoD appropriation
        expired could not be justified because of delivery time, production lead-time,
        or unforeseen delays. Therefore, no bona fide need existed.

    24. Video Teleconference Upgrades. The Space and Naval Warfare Systems
        Command sent MIPR N0003904IPFG004 for approximately $416,000 using
        O&M Funds and MIPR N0003904IPFDB97 for $460,000 to GSA on
        September 29, 2004, using Other Procurement Funds, to purchase video
        teleconference upgrades and equipment. GSA obligated the funds against
        contract number GST0905DF0040 in October 2004. The Space and Naval
        Warfare Systems Command obtained upgrades (using MIPR


                                        41
       N0003904IPFG004) above the O&M funds threshold of $250,000. The
       modification of a system with a cost of $250,000 or more is an investment and
       should be funded with Other Procurement Funds. Therefore, the Space and
       Naval Warfare Systems Command used the incorrect appropriation. The
       FY 2004 O&M Funds expired on September 30, 2004 and GSA did not sign
       the contract for services until October 2004. The procurement for upgrade
       services portion of this order was severable and met a FY 2005 requirement.
       Therefore, no FY 2004 bona fide need existed.

Space and Naval Warfare Systems Center New Orleans
    25. Work Force Learning Project. The Space and Naval Warfare Systems
        Center New Orleans sent MIPR N6925004MPGR001 for approximately
        $3.2 million to GSA on September 28, 2004, using O&M Funds. The Space
        and Naval Warfare Systems Center New Orleans used GSA to explore
        distance learning capabilities as an efficient and effective training vehicle for
        the DoD. This project is to further investigate and maximize use of distance
        learning techniques to support the civilian community learning requirements.
        GSA did not award a contract as of November 23, 2004. RDT&E funds are
        used to develop major system upgrades, to purchase test articles, and to
        conduct developmental testing and initial operational testing and evaluation
        prior to system acceptance and subsequent production. The Space and Naval
        Warfare Systems Center New Orleans should have used RDT&E funds
        because the type of work to be performed is research, definition, prototyping,
        and validation of processes, methods and tools related to civilian workforce
        development. Therefore, the Space and Naval Warfare Systems Center
        New Orleans used the incorrect appropriation. In addition, FY 2004
        O&M Funds expired on September 30, 2004. GSA did not award a contract
        as of November 23, 2004. The procurement for services is severable and
        meets a FY 2005 requirement. No FY 2004 bona fide need exists.

Air Combat Command
    26. Battle Management Project. The Air Combat Command sent
        MIPR DD48809N401296 for $1 million to GSA on September 9, 2004, using
        FY 2004 O&M Funds. The Air Combat Command purchased professional
        services for maintenance and repair of ground-base radar equipment and to
        Manage Air Combat Aerospace Operations Planning and Training Programs
        for the Battle Management Operations. GSA obligated the funds against
        contract number GS07T00BGD0021 exercising option year 3 of the services
        contract. The period of performance on the statement of work is October 1,
        2004, through September 30, 2005, which is FY 2005. Option year 2 of the
        contract, covering the same services, ended on September 30, 2004. The
        procurement for services is severable and meets a FY 2005 requirement.
        FY 2005 O&M Funds should be used. Therefore, a bona fide need did not
        exist for FY 2004.

    27. Modernization of Weapon Systems. The Air Combat Command sent
        MIPR DD44809N401215 for approximately $1.1 million to GSA on

                                         42
        August 19, 2004, using FY 2004 O&M Funds to be obligated against contract
        number GS-00F-0034L, task order T0002AJ0213. The Air Combat
        Command tasks included technical evaluations and requirements development
        planning through automated acquisition and management of relevant data and
        technical assistance to support development of all integrated Air Force
        modernization and sustainment planning activities. Other Procurement Funds
        should have been used because of the cost of the upgrade, which includes
        technical assistance, is counted towards the investment threshold of $250,000
        or more. Therefore, the Air Combat Command used the incorrect
        appropriation.

Air Force Electronic Systems Center
     28. Smart Gate. ESC/FD sent MIPR NFDXXX03681387 for approximately
         $159 million to GSA on August 22, 2003; MIPR NFDXXX03681387
         Amendment 1 for approximately $15 million to GSA on September 9, 2003;
         and MIPR NFDXXX03681387 Amendment 2 to pull back approximately
         $3 million from GSA on September 30, 2003, for security upgrades using
         FY 2003 O&M Funds, which expired on September 30, 2003. These
         upgrades included the smart gates, vehicle barriers, explosive detection
         equipment, and thermal imagers. Overall, five contracts awards are planned.
         GSA awarded contracts on April 30, 2004, and December 12, 2003, for
         vehicle barriers and thermal imager equipment, respectively. GSA used the
         General Supply Fund to award the two contracts that were funded for
         approximately $41 million. Additionally, GSA seeks to award three
         additional contracts for handheld and desktops explosive detection equipment
         and smart gates for approximately $130 million. The GSA initial review of
         the 3 proposals has indicated that it too has some concerns. The receipt of
         goods after the DoD appropriation expired could not be justified because of
         delivery time, production lead-time, or unforeseen delays. No bona fide need
         exists because the funds expired on September 30, 2003, and the work would
         not be performed until FY 2005 or later. Military Construction includes the
         cost of all military construction work to produce a complete and usable
         facility or a complete and usable improvement to an existing facility. Because
         the vehicle barriers are construction, ESC/FD should have used Military
         Construction Funds. Therefore, ESC/FD used the incorrect appropriation.

     29. Security System Assessment. ESC/FD sent MIPR NFDXXX03681571 for
         $2.9 million to GSA on September 25, 2003, using O&M funds for
         completion of site visits as the first part of the Security Assessment of
         100 Air Force Bases. GSA awarded the contract in October 2003. The
         procurement for services is severable and met a FY 2004 requirement.
         Therefore, no FY 2003 bona fide need existed for this purchase.

     30. Joint Conflicts and Tactical Simulation System Assessment. ESC/FD sent
         MIPR NFDXXX03681595 for approximately $1.24 million to GSA on
         September 30, 2003, utilizing O&M funds. GSA awarded the contract in
         October 2003. The ESC/FD procured support services to conduct a
         simulation vulnerability study of 100 Air Force Bases worldwide. The



                                         43
       procurement for services is severable and met a FY 2004 requirement.
       Therefore, no FY 2003 bona fide need existed for the purchase.

Air Force Medical Support Agency
    31. End User Devices. The Air Force Medical Support Agency sent
        MIPR NMIPR045204141 for approximately $2.8 million and
        MIPR NMIPR045204112 for approximately $8.2 million to GSA on
        September 14, 2004 and September 1, 2004, respectively, using O&M funds.
        The Air Force Medical Support Agency required End User Devices in support
        of the worldwide deployment of Composite Health Care Systems to Air Force
        Medical Facilities. FY 2004 O&M funds expired on September 30, 2004. As
        of January 4, 2005, GSA has not awarded a contract action for the
        requirements for MIPR NMIPRO4524141. The receipt of goods after the
        DoD appropriation expired could not be justified because of delivery time,
        production lead-time, or unforeseen delays. Therefore, no bona fide need
        existed.

    32. Web Management Design. The Air Force Medical Support Agency sent
        MIPR NMIPR405203590 for approximately $1.7 million and
        MIPR NMIPR045204164 for $288,000 to GSA on October 16, 2003, and
        September 28, 2004, respectively, using FY 2004 O&M funds. The Air Force
        Medical Support Agency required Web Management, Design, and Contract
        Support. GSA awarded a contact with funds from MIPR NMIPR405203590
        on January 28, 2004. However, the Air Force Medical Support Agency
        personnel could not determine whether GSA awarded a contract for
        MIPR NMIPR045204164 as of January 5, 2005. Contracts for severable
        services must be formed in the fiscal year of the funds being used. Services
        under such contracts must meet the bona fide needs rule. Accordingly, we
        believe the Air Force Medical Support Agency did not have a bona fide need
        for the FY 2004 O&M funds used on MIPR NMIPR045204164. Furthermore,
        the Air Force Medical Support Agency used O&M funds for the purchase of
        developmental type equipment, which should have been funded with RDT&E
        funds. RDT&E Funds are used to develop major system upgrades, to
        purchase test articles, and to conduct developmental testing and initial
        operational testing and evaluation prior to system acceptance and subsequent
        production. The Air Force Medical Support Agency used the incorrect
        appropriation for this purchase. Also, the Air Force Medical Support Agency
        funded the FY 2005 option year with a combination of FY 2002 and 2003
        O&M funds. See section on Improper Use of Funds, page 13 for further
        details.

U.S. Southern Command
    33. Debit Card Pilot Program. The Southern Command sent
        MIPR MIPR3L21F60012 for $637,294 to GSA on August 13, 2003 and
        MIPR MIPR3L21F60012 Amendment 1 for $150,000 to GSA on
        September 25, 2003, using O&M funds. GSA awarded the contract on
        August 20, 2003. The requirement is for testing the U.S. Debit Card for the

                                       44
       U.S. Treasury Department and developing an interface with DoD financial
       systems. RDT&E Funds are used to develop major system upgrades, to
       purchase test articles, and to conduct developmental testing and initial
       operational testing and evaluation prior to system acceptance and subsequent
       production. Because the Southern Command is requiring contractors to
       perform testing and developmental efforts, RDT&E Funds should have been
       used instead of O&M Funds. Therefore, the Southern Command used the
       incorrect appropriation.

    34. Joint Detainee Information Management System. The Southern Command
        sent MIPR MIPR4K47G6U199 for approximately $573,000 to GSA on
        July 26, 2004, using O&M funds. The Southern Command required various
        hardware and software for the Joint Detainee Information Management
        System. The modification of a system with a cost of $250,000 or more is an
        investment and should be funded with Other Procurement Funds. Therefore,
        the Southern Command used the incorrect appropriation.

Defense Manpower Data Center
    35. Universally Accepted Credentials. The Defense Manpower Data Center
        sent MIPR X14H5A44F136MP, Amendment 1 for $360,000 to GSA on
        September 28, 2004, using O&M funds. The Defense Manpower Data Center
        required commercial off the shelf hardware and software, technical support
        services, and hardware maintenance. GSA had not placed the funds on the
        contract as of December 15, 2004. The procurement for services was
        severable and met a FY 2005 requirement. In addition, the receipt of goods
        after the DoD appropriation expired could not be justified because of delivery
        time, production lead-time, or unforeseen delays. Therefore, no bona fide
        need existed.

    36. Beneficiary Services and Ancillary Support. The Defense Manpower Data
        Center sent MIPR XK3H5A33F273MP for $6 million to GSA on September
        26, 2003, using O&M funds. The Defense Manpower Data Center required
        highly qualified on-site technical support contractor personnel to provide local
        area network/wide area network engineering and administration, Unix system
        administration support, Oracle database support, technical writing, and project
        planning and management as Defense Management Data Center Systems
        Integration and Technical Support Division staff. GSA awarded the contract
        in October 2004. The procurement for services was severable and met a
        FY 2005 requirement. Therefore, no bona fide need existed in the year of the
        appropriation.

    37. Defense Biometric Identification System. The Defense Manpower Data
        Center sent MIPR XK4H5A44F288MP Amendment 1 for $1.25 million to
        GSA on September 28, 2004, using O&M funds. The Defense Manpower
        Data Center required highly qualified personnel for both ongoing and ad hoc
        Common Access Card failure analysis, durability analysis, and Common
        Access Card Program Support for the Enterprise Defense Biometric
        Identification System and Defense Cross-Certification Identification System.
        The Defense Manpower Data Center sent the MIPR using FY 2004 funds,


                                        45
   however; as of December 16, 2004, GSA had not placed the funds on the
   contract. FY 2005 funds should have been used for this severable services
   contract.

38. CAC Vulnerability. The Defense Manpower Data Center sent
    MIPR XX4H5A44F222MP Amendment 1 for $350,000 to GSA on
    August 12, 2004, using O&M funds. The requirement is for the continued
    testing of the Common Access Card vulnerability testing to ensure Common
    Access Card security. As of December 16, 2004, GSA had not obligated the
    MIPR funds on a contract. Accordingly, the bona fide need rule had not been
    met. FY 2004 O&M funds expired on September 30, 2004. Therefore,
    FY 2005 funds should have been used for this purchase.




                                   46
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
   Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Commander, Army Materiel Command
Assistant Secretary of the Army (Financial Management and Comptroller)
Commander, Army Accession Command
Commander, Army Reserve Command
Commander, National Guard Bureau
Auditor General, Department of the Army
Director, Program Executive Office, Enterprise Information Systems

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Commander, Naval Education and Training Command
Commander, Naval Reserve Forces Command
Commander, Space and Naval Warfare Systems Command
  Commander, Space and Naval Warfare Systems Center San Diego
  Commander, Space and Naval Warfare Systems Center New Orleans
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Commander, Air Combat Command
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Commander, Electronic Systems Center
Auditor General, Department of the Air Force
Commander, Air Force Medical Support Agency




                                          62
Combatant Command
Inspector General, U.S. Joint Forces Command

Unified Command
Commander, U.S. Southern Command

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency
Director, Defense Manpower Data Center

Non-Defense Federal Organizations
Office of Management and Budget
General Services Administration, Inspector General

Congressional Committees and Subcommittee, Chairman and
  Ranking Minority Members
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Subcommittee on Military Construction, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
Senate Committee on Finance
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Subcommittee on Military Construction, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                          63
Office of the Under Secretary Acquisition,
Technology, and Logistics Comments




                       64
65
66
67
68
69
70
71
72
     Final Report
      Reference




     Revised




73
74
75
76
77
78
Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer
Comments




                       79
80
81
Final Report
 Reference




Revised




               82
     Final Report
      Reference




     Revised




     Revised




83
Final Report
 Reference




Revised




Deleted




Revised
page 35




               84
     Final Report
      Reference




     Revised
     page 35




     Revised
     page 36




     Revised
     page 37




85
Final Report
 Reference




Revised
page 39




Revised
page 39




Deleted
page 43




Revised
page 43




Deleted
page 43




               86
     Final Report
      Reference




     Deleted
     page 44




87
Defense Manpower Data Center Comments




                    88
89
90
91
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Contract Management prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed
below.

Richard B. Jolliffe
Terry L. McKinney
Timothy E. Moore
Eric B. Edwards
Robert E. Bender
Martin I. Gordon
Christine M. McIsaac
George A. Ford
Monelle K. Riviere
Sherney W. Alexander
Brandy L. Smith
Monica L. Noell
